APPENDIX A
Opinion of the Connecticut Supreme Court, State v.
Liegenbuth, SC 20145 (Aug. 27, 2020).

App.1

****************************************************************
The ‘‘officially released’’ date that appears near the
beginning of this opinion is the date the opinion was
released as a slip opinion. The operative date for the
beginning of all time periods for filing postopinion
motions and petitions for certification is the ‘‘officially
released’’ date appearing in the opinion.
This opinion is subject to revisions and editorial
changes, not of a substantive nature, and corrections
of a technical nature prior to publication in the
Connecticut Law Journal.
****************************************************************

App.2

STATE OF CONNECTICUT v. DAVID G. LIEBENGUTH
(SC 20145)
Robinson, C. J., and Palmer, McDonald, D’Auria,
Mullins, Kahn and Ecker, Js.*
Argued March 29, 2019—officially released August 27, 2020**
Procedural History

Amended information charging the defendant with
breach of the peace in the second degree and tampering
with a witness, brought to the Superior Court in the
judicial district of Stamford-Norwalk, geographical area
number twenty, and tried to the court, Hernandez, J.;
verdict and judgment of guilty, from which the defendant appealed to the Appellate Court, DiPentima, C.
J., and Sheldon and Devlin, Js., which reversed in part
the trial court’s judgment and remanded the case to that
court with direction to render a judgment of acquittal
on the charge of breach of the peace in the second
degree, and the state, on the granting of certification,
appealed to this court. Reversed in part; judgment
directed.
Timothy F. Costello, assistant state’s attorney, with
whom, on the brief, were Richard J. Colangelo, Jr.,
state’s attorney, and Nadia C. Prinz, former deputy
assistant state’s attorney, for the appellant (state).
John R. Williams, for the appellee (defendant).

App.3

Opinion

PALMER, J. Under General Statutes § 53a-181 (a) (5),
a person is guilty of breach of the peace in the second
degree when, with the intent to cause inconvenience,
annoyance or alarm, he uses abusive language in a public place.1 That broad statutory proscription, however,
is limited by the free speech provisions of the first
amendment to the United States constitution,2 which
prohibit the government from ‘‘restrict[ing] expression
because of its message, its ideas, its subject matter, or
its content’’; (internal quotation marks omitted) Ashcroft v. American Civil Liberties Union, 535 U.S. 564,
573, 122 S. Ct. 1700, 152 L. Ed. 2d 771 (2002); thereby
protecting speech ‘‘without regard . . . to the truth,
popularity, or social utility of the ideas and beliefs [that]
are offered.’’ National Assn. for the Advancement of
Colored People v. Button, 371 U.S. 415, 445, 83 S. Ct.
328, 9 L. Ed. 2d 405 (1963). These safeguards, however,
although expansive, are not absolute, and the United
States Supreme Court has long recognized a few discrete categories of speech that may be prosecuted and
punished, including so-called ‘‘fighting words’’—‘‘those
personally abusive epithets [that], when addressed to
the ordinary citizen, are, as a matter of common knowledge, inherently likely to provoke violent reaction.’’
Cohen v. California, 403 U.S. 15, 20, 91 S. Ct. 1780, 29
L. Ed. 2d 284 (1971). In this certified appeal, we must
determine whether certain vulgar and racially charged
remarks of the defendant, David G. Liebenguth, which
included multiple utterances of the words ‘‘fucking niggers’’ directed at an African-American parking enforcement official during a hostile confrontation with that
official following the defendant’s receipt of a parking
ticket, were ‘‘fighting words’’ subject to criminal sanctions. As a result of his conduct, the defendant was
arrested and charged with breach of the peace in the
second degree in violation of § 53a-181 (a) (5) and,
following a trial to the court, was found guilty.3 On
appeal to the Appellate Court, the defendant claimed,
inter alia, that the evidence was insufficient to support
the trial court’s finding of guilty because the words he
uttered to the parking official constituted protected
speech that could not, consistent with the first amendment, provide the basis of a criminal conviction. See
State v. Liebenguth, 181 Conn. App. 37, 47, 186 A.3d 39
(2018). Although acknowledging that the defendant’s
language was ‘‘extremely vulgar and offensive’’ and
‘‘meant to personally demean’’ the official; id., 53; the
Appellate Court, with one judge dissenting, agreed with
the defendant that his speech was constitutionally protected and that, consequently, his conviction, because
it was predicated on that speech, could not stand. See
id., 54; see also id., 58 (Devlin, J., concurring in part
and dissenting in part). We granted the state’s petition
for certification to appeal, limited to the question of
whether the Appellate Court correctly concluded that

App.4

the defendant’s conviction must be reversed because
the first amendment barred his prosecution for the verbal statements at issue. See State v. Liebenguth, 330
Conn. 901, 189 A.3d 1231 (2018). We now conclude
that the defendant’s remarks were unprotected fighting
words and, therefore, that his conviction does not run
afoul of the first amendment. Accordingly, we reverse
the judgment of the Appellate Court in part and remand
the case to that court with direction to affirm the trial
court’s judgment with respect to his conviction of
breach of the peace in the second degree.
The opinion of the Appellate Court sets forth the
following relevant facts and procedural history.
‘‘Michael McCargo, a parking enforcement officer for
the town of New Canaan, testified that he was patrolling
the [Morse] Court parking lot on the morning of August
28, 2014, when he noticed that the defendant’s vehicle
was parked in a metered space for which no payment
had been made. He first issued a [fifteen dollar parking]
ticket for the defendant’s vehicle, then walked to
another vehicle to issue a ticket, while his vehicle
remained idling behind the defendant’s vehicle. As
McCargo was returning to his vehicle, he was
approached by the defendant, whom he had never
before seen or interacted with. The defendant said to
McCargo, ‘not only did you give me a ticket, but you
blocked me in.’ Initially believing that the defendant
was calm, McCargo jokingly responded that he didn’t
want the defendant getting away. When the defendant
then attempted to explain why he had parked in the
lot, McCargo responded that his vehicle was in a
metered space for which payment was required, not in
one of the lot’s free parking spaces. McCargo testified
that the defendant’s demeanor then ‘escalated,’ with
the defendant [having said] that the parking authority
was ‘[fucking] [un]believable’ and [having told]
McCargo that he had given him a parking ticket ‘because
my car is white. . . . [N]o, [you gave] me a ticket
because I’m white.’ As the defendant, who is white,
spoke with McCargo, who is African-American, he
‘flared’ his hands and added special emphasis to the
profanity he uttered. Even so, according to McCargo,
the defendant always remained a ‘respectable’ distance
from him. Finally, as the defendant was walking away
from McCargo toward his own vehicle, he spoke the
words, ‘remember Ferguson.’ ’’ State v. Liebenguth,
supra, 181 Conn. App. 39–40.
McCargo also testified that, ‘‘[a]fter both men had
returned to and reentered their vehicles, McCargo,
whose window was rolled down . . . thought he heard
the defendant say the words, ‘fucking niggers.’ This
caused him to believe that the defendant’s prior comment about Ferguson had been made in reference to
the then recent [and highly publicized] shooting of an
African-American man by a white police officer in Ferguson, Missouri [on August 9, 2014, approximately three

App.5

weeks earlier]. [McCargo] thus believed that the [defendant’s reference to Ferguson was a ‘threat’] meant to
imply that what had happened in Ferguson ‘was going
to happen’ to him. McCargo also believed that, by
uttering the racial slur and making reference to Ferguson, the defendant was trying to rile him up and [to]
escalate the situation [by ‘taking it to a whole other
level’]. That, however, did not happen, for, although
McCargo found the remark offensive, and he had never
before been the target of such language while performing his duties, he remained calm at all times and
simply drove away to resume his patrol.’’ Id., 40.
McCargo further testified, however, that, ‘‘[s]hortly
thereafter . . . as [McCargo] was driving away, the
defendant [cut through the parking lot in his vehicle,
approached McCargo, and then] drove past him.’’ Id.,
40–41. As the defendant was driving past McCargo, ‘‘the
defendant turned toward him, looked directly at him
with an angry expression on his face, and repeated
the slur, ‘fucking niggers.’ McCargo [also] noted in his
testimony that the defendant said the slur louder the
second time than he had the first time.
‘‘After the defendant drove out of the parking lot,
McCargo [who was shocked and personally offended
by the encounter] called his supervisor, who instructed
him to report the incident to the New Canaan police.
In his report, McCargo noted that there might have been
a witness to the interaction, whom he described as a
young, white female. The defendant later was arrested
in connection with the incident on the charge of breach
of the peace in the second degree.’’ Id., 41.
‘‘Next to testify was Mallory Frangione, the young,
white female witness to the incident whom McCargo
had mentioned in his report. She testified that she
parked in the [Morse] Court parking lot around 9:45 a.m.
on . . . August 28, 2014, and, as soon as she opened
her car door, she heard yelling. She then saw two men,
McCargo and the defendant, who were standing outside
of their vehicles about seventy feet away from her. She
observed that the defendant was moving his hands all
around, that his body movements were aggressive and
irate, and that his voice was loud. She heard him say
something about Ferguson, then say that something
was ‘[fucking] unbelievable.’ [Frangione] further testified that she saw the defendant take steps toward
McCargo while acting in an aggressive manner. She
described McCargo, by contrast, as calm, noting that he
never raised his voice, moved his arms or gesticulated
in any way. McCargo ultimately backed away from the
defendant and got into his vehicle. The defendant,
[Frangione] recalled, drove in two circles around the
parking lot before leaving. Frangione testified that witnessing the interaction made her feel nervous and
upset.’’4 Id.
‘‘After the state rested [its case], the defendant moved

App.6

for a judgment of acquittal . . . which the court
denied. The defendant elected not to testify. The court,
ruling from the bench, found the defendant guilty . . . .
It reasoned as follows: ‘In finding that the defendant’s
language and behavior [are] not protected speech, the
court considers the words themselves, in other words,
the content of the speech, the context in which [they
were] uttered, and all of the circumstances surrounding
the defendant’s speech and behavior.
‘‘ ‘The court finds that the defendant’s language, fucking niggers directed at . . . McCargo twice . . . is not
protected speech. . . . [I]n the American lexicon,
there is no other racial epithet more loaded with racial
animus, no other epithet more degrading, demeaning
or dehumanizing. It is a word [that] is probably the
most [vile] racial epithet a non-African-American can
direct [toward] an African-American. [The defendant]
is white. . . . McCargo is African-American.
‘‘ ‘In light of this country’s long and shameful history
of state sanctioned slavery, Jim Crow segregation, state
sanctioned racial terrorism, financial and housing discrimination, the word simply has . . . no understanding under these circumstances other than as a word
directed to incite violence. The word itself is a word
likely to provoke a violent response.
‘‘ ‘The defendant is not however being prosecuted
solely for use of this word. All language must be considered in light of its context.
‘‘ ‘The court finds that considering . . . the content
of the defendant’s speech taken in context and in light
of his belligerent tone, his aggressive stance, the fact
that he was walking [toward] . . . McCargo and moving his hands in an aggressive manner, there’s no other
interpretation other than these are fighting words.5 And
he uttered the phrase not once but twice. It was
directed—the court finds that it was directed directly at
. . . McCargo. There were no other African-Americans
present . . . in the parking lot when it happened, and
indeed . . . McCargo’s unease and apprehension at
hearing those words [were] corroborated by . . . Frangione who . . . said that she felt disconcerted by the
defendant’s tone of voice and his aggressive stance and
actions.’ ’’ (Footnote added.) Id., 43–44.
The defendant thereafter appealed to the Appellate
Court, claiming, inter alia, that the evidence was insufficient to support his conviction of breach of the peace
in the second degree. Id., 39. Specifically, he maintained
that the racial taunts he directed at McCargo were protected by the first amendment and, therefore, could not
form the basis of a conviction under § 53a-181 (a) (5).
Id., 47. Relying in large measure on this court’s decision
in State v. Baccala, 326 Conn. 232, 163 A.3d 1, cert.
denied,
U.S.
, 138 S. Ct. 510, 199 L. Ed. 2d 408
6
(2017), the Appellate Court, in a two-to-one decision,

App.7

agreed with the defendant that the evidence was insufficient to support his conviction because his utterances
were unlikely to provoke an immediate, violent
response by a reasonable person in McCargo’s shoes—
that is, his utterances were not prohibited fighting
words, and, therefore, the defendant’s conviction could
not pass muster under the first amendment. See State
v. Liebenguth, supra, 181 Conn. App. 53–54.
In support of its conclusion, the Appellate Court reasoned: ‘‘[T]he defendant used extremely vulgar and
offensive language, meant to personally demean
McCargo. Under the circumstances in which he uttered
this language, however, it was not likely to tend to
provoke a reasonable person in McCargo’s position
immediately to retaliate with violence. Although the
evidence unequivocally supports a finding that the
defendant at one point walked toward McCargo while
yelling and moving his hands . . . [t]he evidence [also]
unequivocally shows . . . that the defendant was in his
car both times that he directed the racial slurs toward
McCargo. McCargo did testify that the defendant’s use
of the slurs shocked and appalled him, and that he
found the remarks offensive. He also testified, however,
that he remained calm throughout the encounter and
felt no need to raise his voice to the defendant. A reasonable person acting in the capacity of a parking official
would be aware that some level of frustration might be
expressed by some members of the public who are
unhappy with receiving tickets and would therefore not
be likely to retaliate with immediate violence during
such an interaction. In reviewing the entire context of
the interaction, we therefore find that, because
McCargo was unlikely to retaliate with immediate violence to the conduct for which the defendant was
charged, the defendant’s words were not ‘fighting
words,’ [on] which he might appropriately be convicted
of breach of the peace. The defendant’s conviction of
breach of the peace in the second degree must therefore
be reversed.’’ (Footnotes omitted.) Id.
Judge Devlin dissented with respect to this holding
because, in his view, the defendant’s remarks, when
considered in the context in which they were uttered,
constituted fighting words that were likely to provoke
a reasonable person in McCargo’s position to retaliate
with violence. See id., 66 (Devlin, J., concurring in part
and dissenting in part). Judge Devlin concluded that
the majority did not adequately account for the truly
heinous and inflammatory nature of the word ‘‘nigger,’’
in particular, when, as in the present case, that
‘‘viciously hostile epithet,’’ which has deep roots in this
nation’s long and deplorable history of racial bigotry
and discrimination, is used by a white person with the
intent of demeaning and humiliating an African-American person. (Internal quotation marks omitted.) Id.,
64–65 (Devlin, J., concurring in part and dissenting in
part). In rejecting the defendant’s assertion that his

App.8

speech was shielded from prosecution by the first
amendment, Judge Devlin explained that the defendant’s words ‘‘were scathing insults that in many situations would provoke a reflexive, visceral response.’’ Id.,
67 (Devlin, J., concurring in part and dissenting in part).
Indeed, according to Judge Devlin, ‘‘if angrily calling an
African-American man a ‘fucking [nigger]’ after taunting
him with references to a recent police shooting of a
young African-American man by a white police officer
is not breach of the peace,’’ then the fighting words
doctrine no longer has any ‘‘continued vitality’’ under
the first amendment. (Internal quotation marks omitted.) Id., 68 (Devlin, J., concurring in part and dissenting
in part).
We subsequently granted the state’s petition for certification to appeal to decide whether the Appellate Court
was correct in holding that the defendant’s conviction
had to be reversed because the language that formed
the basis of that conviction was protected by the first
amendment.7 For the reasons that follow, we agree with
Judge Devlin and the trial court that, under the circumstances presented, the first amendment does not bar
the defendant’s conviction because his racist and
demeaning utterances were likely to incite a violent
reaction from a reasonable person in McCargo’s position.8
For purposes of this appeal, there is no dispute that
the evidence adduced by the state at trial supports the
trial court’s factual findings. The sole issue we must
decide, then, is whether, contrary to the determination
of the Appellate Court, those factual findings and any
inferences that reasonably may be drawn therefrom are
sufficient to establish the defendant’s guilt beyond a
reasonable doubt. See, e.g., State v. Parnoff, 329 Conn.
386, 395, 186 A.3d 640 (2018).
Because the defendant’s conviction is predicated on
his verbal statements, our determination of the sufficiency of the state’s case necessarily depends on
whether those statements deserve the protection of the
first amendment, despite their patently offensive and
objectionable nature. If they do, they cannot serve as
the basis for his conviction, which would have to be
reversed for evidentiary insufficiency. The defendant
having been charged with violating § 53a-181 (a) (5) by
use of allegedly ‘‘abusive . . . language’’; General Statutes § 53a-181 (a) (5); see footnote 1 of this opinion;
we therefore must decide whether his language, which
was no doubt ‘‘abusive’’ under the commonly understood meaning of that term, nonetheless is entitled to
constitutional protection. To make that determination,
we apply the judicial gloss necessary to limit the reach
of the breach of the peace statute to ensure that it
comports with constitutional requirements. See State
v. Baccala, supra, 326 Conn. 234, 251 (placing gloss
on § 53a-181 (a) (5) to avoid possibility of conviction

App.9

founded on constitutionally protected speech). For
present purposes, ‘‘the constitutional guarantee of freedom of speech requires that [§ 53a-181 (a) (5)] be confined to language [that], under the circumstances of its
utterance, constitutes [unprotected] fighting words—
those [that] by their very utterance inflict injury or tend
to incite an immediate breach of the peace.’’ (Internal
quotation marks omitted.) State v. Beckenbach, 1 Conn.
App. 669, 678, 476 A.2d 591 (1984), rev’d on other
grounds, 198 Conn. 43, 501 A.2d 752 (1985). ‘‘Accordingly, to establish the defendant’s violation of § 53a-181
(a) (5) . . . in light of its constitutional gloss, the state
was required to prove beyond a reasonable doubt that
the defendant’s words were likely to provoke an imminent violent response’’ under the circumstances in
which they were uttered. (Citation omitted.) State v.
Baccala, supra, 250–51.
In view of the fact that the state’s case against the
defendant implicates his free speech rights, several
additional principles govern our review of the issue
presented. In certain cases, such as the present one, in
which ‘‘[the line between speech unconditionally guaranteed and speech that may be legitimately regulated]
must be drawn, the rule is that we examine for ourselves
the statements [at] issue and the circumstances under
which they were made to see if they are consistent
with the first amendment.’’ (Internal quotation marks
omitted.) Id., 251. In other words, ‘‘the inquiry into the
protected status of . . . speech is one of law, not fact.’’
(Internal quotation marks omitted.) State v. Parnoff,
supra, 329 Conn. 395. We therefore ‘‘apply a de novo
standard of review . . . .’’ (Internal quotation marks
omitted.) Id. Accordingly, we have ‘‘an obligation to
make an independent examination of the whole record
in order to make sure that the judgment does not constitute a forbidden intrusion [in] the field of free expression.’’ (Internal quotation marks omitted.) Id., 395–96.
‘‘This independent scrutiny, however, does not authorize us to make credibility determinations regarding
disputed issues of fact. Although we review de novo
the trier of fact’s ultimate determination that the statements at issue constituted [fighting words], we accept
all subsidiary credibility determinations and findings
that are not clearly erroneous.’’ (Internal quotation
marks omitted.) Id., 396.
Recently, in State v. Baccala, supra, 326 Conn. 237–50,
we undertook a thoroughgoing examination of the roots
and scope of the fighting words doctrine, which was
first articulated by the United States Supreme Court
more than seventy-five years ago in Chaplinsky v. New
Hampshire, 315 U.S. 568, 62 S. Ct. 766, 86 L. Ed. 1031
(1942). See id., 569, 573 (holding that ‘‘God damned
racketeer’’ and ‘‘damned Fascist’’ were epithets likely
to provoke addressee to retaliate violently, thereby
causing breach of the peace (internal quotation marks
omitted)). As we explained in Baccala; see State v.

App.10

Baccala, supra, 237–38; although the first amendment
protects nearly all speech, no matter how detestable
or odious it may be, that protection does not extend
to the extremely narrow category of words that ‘‘have
a direct tendency to cause acts of violence by the person
to whom, individually, the remark is addressed.’’ (Internal quotation marks omitted.) Chaplinsky v. New
Hampshire, supra, 573. In recognizing the fighting
words exception to the protection ordinarily afforded
speech under the first amendment, the court in
Chaplinsky reasoned that such words comprise ‘‘no
essential part of any exposition of ideas, and are of
such slight social value as a step to truth that any benefit
that may be derived from them is clearly outweighed
by the social interest’’ in maintaining the peace by preventing the immediate incitement of violence. Id., 572.
It is by now well settled that there are no per se
fighting words because words that are likely to provoke
an immediate, violent response when uttered under one
set of circumstances may not be likely to trigger such
a response when spoken in the context of a different
factual scenario. See State v. Baccala, supra, 326 Conn.
238. Consequently, whether words are fighting words
necessarily will depend on the particular circumstances
of their utterance. See id., 239; see also State v. Hoskins,
35 Conn. Supp. 587, 591, 401 A.2d 619 (App. Sess. 1978)
(‘‘The fighting words concept has two aspects. One
involves the quality of the words themselves. The other
concerns the circumstances under which the words
are used.’’ (Internal quotation marks omitted.)). This
contextual approach is also ‘‘a logical reflection of the
way the meaning and impact of words change over
time.’’ State v. Baccala, supra, 239; see also id. (‘‘[w]hile
calling someone a racketeer or a fascist might naturally
have invoked a violent response in the 1940s when
Chaplinsky was decided, those same words would be
unlikely to even raise an eyebrow today’’). Indeed, due
to changing social norms, public discourse has become
coarser in the years following Chaplinsky; id., 298 (Eveleigh, J., concurring in part and dissenting in part); such
that, today, ‘‘there are fewer combinations of words
and circumstances that are likely to fit within the fighting words exception.’’9 State v. Parnoff, supra, 329
Conn. 413 (Kahn, J., concurring in the judgment); see
also id. (‘‘[a]s certain language is acceptable in more
situations, the borders of the fighting words exception contract’’).
Against this broad jurisprudential backdrop in Baccala, we sought to identify the kinds of considerations
likely to be relevant in determining, in any given case,
whether the words at issue constituted unprotected
fighting words. We explained: ‘‘A proper contextual
analysis requires consideration of the actual circumstances as perceived by a reasonable speaker and
addressee to determine whether there was a likelihood
of violent retaliation. . . . This necessarily includes a

App.11

consideration of a host of factors.
‘‘For example, the manner and circumstances in
which the words were spoken . . . [and] [t]he situation under which the words are uttered . . . . Thus,
whether the words were preceded by a hostile exchange
or accompanied by aggressive behavior will bear on
the likelihood of such a reaction. . . .
‘‘A proper examination of context also considers
those personal attributes of the speaker and the
addressee that are reasonably apparent because they
are necessarily a part of the objective situation in which
the speech was made. . . . Courts have, for example,
considered the age, gender, race, and status of the
speaker. . . . Indeed, common sense would seem to
suggest that social conventions, as well as special legal
protections, could temper the likelihood of a violent
response when the words are uttered by someone less
capable of protecting [himself or herself], such as a
child, a frail elderly person, or a seriously disabled
person.
‘‘Although . . . the speech must be of such a nature
that it is likely to provoke the average person to retaliation . . . when there are objectively apparent characteristics that would bear on the likelihood of such a
response, many courts have considered the average
person with those characteristics. Thus, courts also
have taken into account the addressee’s age, gender,
and race. . . .
‘‘Similarly, because the fighting words exception is
concerned with the likelihood of violent retaliation, it
properly distinguishes between the average citizen and
those addressees who are in a position that carries
with it an expectation of exercising a greater degree of
restraint. . . . [Consequently, because] a properly
trained [police] officer may reasonably be expected to
exercise a higher degree of restraint than the average
citizen . . . [we] hold police officers to a higher standard than ordinary citizens when determining the likelihood of a violent response by the addressee.’’ (Citations
omitted; emphasis in original; footnotes omitted; internal quotation marks omitted.) State v. Baccala, supra,
326 Conn. 240–44.
In addition, ‘‘several courts have considered as part of
the contextual inquiry whether the addressee’s position
would reasonably be expected to cause him or her to
exercise a higher degree of restraint than the ordinary
citizen under the circumstances.’’ Id., 245. ‘‘Finally . . .
the fighting words exception is not concerned with
creating symmetrical free speech rights by way of establishing a uniform set of words that are constitutionally
proscribed. . . . Rather, because the fighting words
exception is intended only to prevent the likelihood
of an actual violent response, it is an unfortunate but
necessary consequence that we are required to differen-

App.12

tiate between addressees who are more or less likely
to respond violently and speakers who are more or less
likely to elicit such a response.’’ (Citation omitted.)
Id., 249.
We then summarized: ‘‘Accordingly, a proper contextual analysis requires consideration of the actual circumstances, as perceived by both a reasonable speaker
and addressee, to determine whether there is a likelihood of violent retaliation. This necessarily includes
the manner in which the words were uttered, by whom
and to whom the words were uttered, and any other
attendant circumstances that were objectively apparent
and bear on the question of whether a violent response
was likely.’’ Id., 250. The starting point, however, for
any analysis of a claim involving the fighting words
doctrine must include an examination of the words
themselves and the extent to which they are understood
to be inflammatory or inciting.
With respect to the language at issue in the present
case, the defendant, who is white, uttered the words
‘‘fucking niggers’’ to McCargo, an African-American person, thereby asserting his own perceived racial dominance and superiority over McCargo with the obvious
intent of denigrating and stigmatizing him. When used
in that way, ‘‘[i]t is beyond question that the use of the
word ‘nigger’ is highly offensive and demeaning, evoking a history of racial violence, brutality, and subordination.’’ McGinest v. GTE Service Corp., 360 F.3d 1103,
1116 (9th Cir. 2004). Not only is the word ‘‘nigger’’
undoubtedly the most hateful and inflammatory racial
slur in the contemporary American lexicon; see id.; but
it is probably the single most offensive word in the
English language. See, e.g., Ayissi-Etoh v. Fannie Mae,
712 F.3d 572, 580 (D.C. Cir. 2013) (Kavanaugh, J., concurring) (‘‘[The] epithet [‘nigger’] has been labeled, variously, a term that ‘sums up . . . all the bitter years of
insult and struggle in America,’ [L. Hughes, The Big Sea:
An Autobiography (Hill and Wang 2d Ed. 1993) p. 269],
‘pure anathema to African-Americans,’ Spriggs v. Diamond Auto Glass, 242 F.3d 179, 185 (4th Cir. 2001), and
‘probably the most offensive word in English.’ [Random
House Webster’s College Dictionary (2d Rev. Ed. 2000)
p. 894]. See generally [A. Haley, Roots: The Saga of an
American Family (Doubleday 1976); [H. Lee, To Kill a
Mockingbird (J. B. Lippincott Co. 1960)]. . . . No other
word in the English language so powerfully or instantly
calls to mind our country’s long and brutal struggle to
overcome racism and discrimination against AfricanAmericans.’’ (Citation omitted.)); R. Kennedy, ‘‘The
David C. Baum Lecture: ‘Nigger!’ as a Problem in the
Law,’’ 2001 U. Ill. L. Rev. 935, 935 (although ‘‘[t]he American language is (and has long been) rife with terms of
ethnic, racial, and national insult: kike, mick, wop, nip,
gook, honkie, wetback, chink, [etc.] . . . ‘nigger is now
probably the most offensive word in English’ ’’ (footnote omitted)); Dictionary.com, available at https://

App.13

www.dictionary.com/browse/nigger?s=t (‘‘The term nigger is now probably the most offensive word in English.
Its degree of offensiveness has increased markedly in
recent years, although it has been used in a derogatory
manner since at least the Revolutionary War.’’).
In fact, because of the racial prejudice and oppression
with which it is forever inextricably linked, the word
‘‘nigger,’’ when used by a white person as an assertion
of the racial inferiority of an African-American person,
‘‘is more than [a] mere offensive utterance . . . . No
word . . . is as odious or loaded with as terrible a
history.’’ (Internal quotation marks omitted.) Daso v.
Grafton School, Inc., 181 F. Supp. 2d 485, 493 (D. Md.
2002); see also In re John M., 201 Ariz. 424, 428, 36
P.3d 772 (App. 2001) (‘‘the term is generally regarded
as virtually taboo because of the legacy of racial hatred
that underlies the history of its use among whites’’
(internal quotation marks omitted)); In re Spivey, 345
N.C. 404, 414, 480 S.E.2d 693 (1997) (‘‘[N]o fact is more
generally known than that a white man who calls a
black man a ‘nigger’ within his hearing will hurt and
anger the black man and often provoke him to confront
the white man and retaliate. The trial court was free
to judicially note this fact.’’). The word being ‘‘one of
insult, abuse and belittlement harking back to slavery
days’’; (internal quotation marks omitted) Taylor v. Metzger, 152 N.J. 490, 510, 706 A.2d 685 (1998); it is uniquely
‘‘expressive of racial hatred and bigotry’’; (internal quotation marks omitted) Swinton v. Potomac Corp., 270
F.3d 794, 817 (9th Cir. 2001), cert. denied, 535 U.S. 1018,
122 S. Ct. 1609, 152 L. Ed. 2d 623 (2002); and ‘‘degrading
and humiliating in the extreme . . . .’’ (Citation omitted; internal quotation marks omitted.) Pryor v. United
Air Lines, Inc., 791 F.3d 488, 496 (4th Cir. 2015). For
all these reasons, the word rightly has been characterized as ‘‘the most provocative, emotionally-charged and
explosive term in the [English] language.’’ (Internal quotation marks omitted.) Lee v. Superior Court, 9 Cal.
App. 4th 510, 513, 11 Cal. Rptr. 2d 763 (1992).
In addition to the defendant’s use of the word ‘‘niggers,’’ other language and conduct by the defendant
further inflamed the situation, rendering it that much
more likely to provoke a violent reaction. First, the
defendant used the profane adjective ‘‘fucking’’—a
word of emphasis meaning wretched, rotten or
accursed10—to intensify the already highly offensive
and demeaning character of the word ‘‘niggers.’’ Like
the term ‘‘nigger,’’ however, the term ‘‘ ‘fucking nigger’
[is] . . . so powerfully offensive that . . . [it] inflicts
cruel injury by its very utterance. It is degrading, it is
humiliating, and it is freighted with a long and shameful
history of humiliation, the ugly effects of which continue to haunt us all.’’ Augis Corp. v. Massachusetts
Commission Against Discrimination, 75 Mass. App.
398, 409, 914 N.E.2d 916, appeal denied, 455 Mass. 1105,
918 N.E.2d 90 (2009). The defendant’s resort to such

App.14

language underscored for McCargo how especially
incensed and insulted the defendant was by virtue of his
having been issued the ticket by an African-American
parking official. By adding this additional measure of
contempt and disgust to the epithet, the defendant only
amplified the assaultive nature of the utterance, making
it even more hateful and debasing.
Second, the defendant, having directed the term
‘‘fucking niggers’’ at McCargo upon entering his vehicle
and learning that McCargo had ticketed him, was not
content just to leave and end the confrontation. Instead,
after McCargo had entered his vehicle and was starting
to drive out of the parking lot, the defendant circled
the lot twice, pulled up next to McCargo and, while
looking angrily at him, again uttered the term ‘‘fucking
niggers,’’ this time more loudly than before. The fact
that the defendant repeated this epithet only served to
exacerbate the provocative and hostile nature of the
confrontation. See Landrum v. Sarratt, 352 S.C. 139,
145, 572 S.E.2d 476 (App. 2002) (whether epithets were
uttered repeatedly is factor to be considered in fighting
words determination); see also State v. Szymkiewicz,
237 Conn. 613, 615–16, 623, 678 A.2d 473 (1996) (holding
that certain epithets were fighting words due, in part,
to repeated nature of utterances).
Third, the defendant employed additional, racially
offensive, crude and foreboding language during his
interaction with McCargo. Early on in the defendant’s
confrontation with McCargo, after learning that he had
been issued a ticket, the defendant became angry and
loudly asserted that the parking authority, McCargo’s
employer, was ‘‘fucking unbelievable.’’ Almost immediately thereafter, the defendant injected race into the
encounter, first stating that McCargo had ticketed him
because his car is white and then accusing McCargo of
issuing him the ticket because the defendant himself
is white. Next, as the defendant walked to his vehicle,
he uttered the words, ‘‘remember Ferguson.’’ In light
of the defendant’s other racially charged remarks, his
menacing invocation of the extremely controversial
shooting of a young, unarmed African-American man by
a white police officer had its intended effect: McCargo
understood that the defendant was raising the specter
of the same race based violence that reportedly had
occurred in Ferguson, Missouri. Considering the defendant’s offensive remarks together, as we must; see, e.g.,
State v. Parnoff, supra, 329 Conn. 401 n.5 (fighting
words determination requires consideration of ‘‘the
totality of the attendant circumstances’’); the defendant’s reference to Ferguson significantly escalated the
already fraught and incendiary confrontation.
Finally, in addition to his offensive and intimidating
utterances, certain conduct by the defendant further
manifested his extreme anger and hostility toward
McCargo. As the two men were speaking outside of

App.15

their respective vehicles, the defendant stepped toward
McCargo while moving his hands and body in an aggressive and irate manner. Frangione witnessed the defendant’s conduct and testified that, even from about seventy feet away, the hostility of the encounter made her
nervous and upset. Moreover, after entering his car, the
defendant drove through the parking lot twice before
leaving, cutting through empty parking spaces so he
could pass by McCargo and again angrily confront him.
As we observed in Baccala, the fact that the defendant’s
words were accompanied by such aggressive and menacing behavior increased the likelihood of a violent
response. See State v. Baccala, supra, 326 Conn. 241.
As we previously discussed, speech will be deemed
to be unprotected fighting words only if it so ‘‘touch[es]
the raw nerves of [the addressee’s] sense of dignity,
decency, and personality . . . [that it is likely] to trigger an immediate violent reaction’’; (internal quotation
marks omitted) State v. Beckenbach, supra, 1 Conn.
App. 678; a standard that, we have said, is satisfied
only if the speech is so inflammatory that it ‘‘is akin to
dropping a match into a pool of gasoline.’’ (Internal
quotation marks omitted.) State v. Parnoff, supra, 329
Conn. 394. We believe this to be the rare case in which
that demanding standard has been met. Born of violence, the word ‘‘nigger,’’ when uttered with the intent to
personally offend and demean, also engenders violence.
Indeed, such use of the word ‘‘nigger’’ aptly has been
called ‘‘a classic case’’ of speech likely to incite a violent
response. In re Spivey, supra, 345 N.C. 415; see also
State v. Hoshijo ex rel. White, 102 Haw. 307, 322, 76
P.3d 550 (2003) (‘‘The experience of being called ‘nigger’
. . . is like receiving a slap in the face. The injury is
instantaneous.’’ (Internal quotation marks omitted.)). It
therefore is unsurprising that many courts have rejected
first amendment challenges to convictions predicated
on the use of the word. See, e.g., In re John M., supra,
201 Ariz. 428 (‘‘lean[ing] out of a car window and
scream[ing] at an African-American woman, ‘fuck you,
you god damn nigger,’ before the car pulled into a
nearby . . . parking lot’’ was behavior likely to provoke an immediate violent response); State v. Hoshijo
ex rel. White, supra, 321 (speech of student manager
of university basketball team who yelled ‘‘shut up you
[fucking] nigger,’’ ‘‘I’m tired of hearing your shit,’’ and
[s]hut your mouth or I’ll kick your ass’’ to AfricanAmerican spectator constituted unprotected fighting
words); In re J.K.P., Docket No. 108,617, 2013 WL
1010694, *1, *3–5 (Kan. App. March 8, 2013) (calling
boys in group of African-American children ‘‘niggers’’
during altercation with them constituted fighting words
that violated disorderly conduct statute) (decision without published opinion, 296 P.3d 1140 (2013)); In re
Shane EE., 48 App. Div. 3d 946, 946–47, 851 N.Y.S.2d 711
(2008) (threats and racial slurs, including ‘‘ ‘we shoot
niggers like you in the woods,’ ’’ were likely to provoke

App.16

immediate violent reaction and therefore constituted
fighting words); In re Spivey, supra, 408, 414 (‘‘loudly
and repeatedly address[ing] a black patron [at a bar]
. . . using the derogatory and abusive racial epithet
‘nigger’ ’’ was conduct that ‘‘squarely falls within the
category of unprotected [fighting words]’’); In re H.K.,
778 N.W.2d 764, 766–67, 770 (N.D. 2010) (following African-American girl into bathroom during dance, calling
her ‘‘nigger’’ and threatening her constituted fighting
words likely to incite breach of peace); see also Bailey
v. State, 334 Ark. 43, 53–54, 972 S.W.2d 239 (1998) (stating that word ‘‘nigger’’ was fighting word in context
used); Lee v. Superior Court, supra, 9 Cal. App. 4th 518
(upholding trial court’s denial of request by AfricanAmerican to change his name from Russell Lawrence
Lee to ‘‘Misteri Nigger’’ and stating that ‘‘men and
women . . . of common intelligence would understand [that] . . . [the word nigger] likely [would] cause
an average addressee to fight’’ (internal quotation marks
omitted)). To whatever extent public discourse in general may have coarsened over time; see, e.g., State v.
Baccala, supra, 326 Conn. 239; it has not eroded to the
point that the racial epithets used in the present case
are any less likely to provoke a violent reaction today
than they were in previous decades.
In support of his contention that the Appellate Court
correctly concluded that his language did not constitute
fighting words, the defendant argues that ‘‘a public official [such as McCargo] is expected to exercise a greater
degree of self-restraint in the face of provocation than
is a civilian.’’ To support this assertion, however, the
defendant cites to cases involving offensive language
directed at police officers,11 in particular, Resek v. Huntington Beach, 41 Fed. Appx. 57 (9th Cir. 2002), in which
the court, in concluding that the words ‘‘ ‘[t]hat’s fucked
up, those pigs can’t do that’ ’’ were not fighting words;
id., 59; went on to explain that, ‘‘[a]long with good
judgment, intelligence, alertness, and courage, the job
of police officers requires a thick skin. Theirs is not a
job for people whose feelings are easily hurt.’’ Id.
Although we agree that police officers generally are
expected to exercise greater restraint than the average
citizen when confronted with offensive language or
unruly conduct, McCargo was not a police officer, and
his duties cannot fairly be characterized as similar to
those of a police officer. Additionally, McCargo’s testimony concerning his five years of experience as a parking enforcement officer—testimony in which he
explained that he never before had been on the receiving end of such hostile or offensive language or had
ever reported a prior incident to the police—suggests
that the abuse McCargo endured during his encounter
with the defendant well exceeded that which someone
in his position reasonably might be expected to face.
Consequently, although we do agree with the Appellate
Court that McCargo, like any parking enforcement offi-

App.17

cial, undoubtedly was aware that some members of the
public might well express frustration and even anger
upon receiving a ticket;12 see, e.g., State v. Liebenguth,
supra, 181 Conn. App. 54; we disagree that the average
African-American parking official would have been prepared for and responded peaceably to the kind of racial
slurs, threatening innuendo, and aggressive behavior
with which McCargo was confronted.
It is true, of course, that McCargo did not react violently despite the highly inflammatory and inciting
nature of the defendant’s language and conduct. ‘‘[Even]
[t]hough the fighting words standard is an objective
inquiry . . . examining the subjective reaction of an
addressee, although not dispositive, may be probative of
the likelihood of a violent reaction.’’ (Internal quotation
marks omitted.) State v. Parnoff, supra, 329 Conn. 403.
Although McCargo acknowledged that the defendant’s
racial epithets had shocked and appalled him and that
he felt ‘‘very bad’’ and personally insulted by them, he
quite rightly opined that he had ‘‘handled [him]self very
well’’ under the circumstances. We fully agree, of
course, that McCargo handled the incident exceptionally well, but we simply are not persuaded that the
average person would have exercised a similar measure
of self-control and professionalism under the same circumstances. Thus, the fact that McCargo did not react
violently in the face of the defendant’s malicious and
demeaning insults does not alter our conclusion with
respect to the likelihood of a violent reaction to that
language. See, e.g., State v. Hoshijo ex rel. White, supra,
102 Haw. 322 (‘‘[It] is of no consequence . . . [that
violence was not precipitated], as the proper standard
is whether the words were likely to provoke a violent
response, not whether violence occurred. Plainly, there
is no requirement that violence must occur, merely that
there be a likelihood of violence. It is abundantly clear
on the facts of this case that there was a likelihood
of violence.’’ (Emphasis in original.)); Little Falls v.
Witucki, 295 N.W.2d 243, 246 (Minn. 1980) (‘‘The fact
that the addressee and object of the fighting words
exercised responsible and mature forbearance in not
retaliating cannot be relied [on] by [the] defendant to
escape responsibility for his own actions. . . . The
focus is properly on the nature of the words and the
circumstances in which they were spoken rather than
on the actual response. The actual response of the
addressee and object of the words is relevant, but not
determinative, of the issue of whether the utterances
meet the fighting words test.’’).
We also reject the defendant’s contention that his
use of the epithets ‘‘fucking niggers’’ cannot provide
the basis of his conviction in view of the fact that the
defendant and McCargo were in their vehicles on both
occasions when the defendant directed those slurs at
McCargo. Because the rationale underlying the fighting
words doctrine is the state’s interest in preventing the

App.18

immediate violent reaction likely to result when highly
offensive language is used to insult and humiliate the
addressee, ‘‘[t]he potential to elicit [such] an immediate
violent response exists only [when] the communication
occurs [face to face] or in close physical proximity.’’
Billings v. Nelson, 374 Mont. 444, 449, 322 P.2d 1039
(2014). This requirement is satisfied in the present case
even though both men were in their vehicles when the
defendant uttered the slurs. When the defendant did so
for the first time, McCargo had pulled his vehicle so
close to the defendant’s vehicle that the defendant
accused McCargo of intentionally blocking him in. On
the second such occasion, the defendant turned directly
toward McCargo as he drove by McCargo’s vehicle and
then repeated the slur loud enough so that McCargo
would be sure to hear it. At this point, the men were
sufficiently close that McCargo could see the angry
expression on the defendant’s face and discern that he
had uttered the slur louder the second time than he
had the first time. At all relevant times, therefore, the
two men were in close proximity to and maintained
eye contact with one another, so that each could see
and hear the other clearly and without difficulty. In
such circumstances, it would have been easy enough
for McCargo to exit his vehicle and to charge after the
defendant, or to ram the defendant’s vehicle with his
own, or to pursue the defendant out of the parking lot
in his own vehicle. Unless the use of a vehicle by the
speaker makes it impossible for the addressee to retaliate immediately, courts routinely have held that the
likelihood of an immediate violent reaction is not diminished merely because the speaker or addressee was in
a vehicle when the offending utterances were made.
See, e.g., In re John M., supra, 201 Ariz. 428–29 (passenger in car who yelled ‘‘ ‘fuck you, you god damn nigger’ ’’
before car pulled into parking lot was found to have
used fighting words likely to provoke violent reaction);
Billings v. Nelson, supra, 450 (‘‘The fact that [the defendant and the driver] were in a car does not mean their
speech could not have incited an immediate violent
response from a listener on the street. . . . [The victim] was close enough to recognize the [speakers’] faces
and to hear their words clearly, even though they did
not holler them.’’ (Citation omitted; internal quotation
marks omitted.)); In re S.J.N-K., 647 N.W.2d 707, 709,
711–12 (S.D. 2002) (when passenger in vehicle who
repeatedly uttered ‘‘ ‘fuck you’ ’’ with accompanying
middle finger gesture while driver of vehicle cut diagonally across adjacent parking lot and in front of addressee’s vehicle, evidence established that passenger’s
words and gestures constituted unprotected fighting
words). But cf. Sandul v. Larion, 119 F.3d 1250, 1252,
1255 (6th Cir.) (when passenger in vehicle traveling at
high rate of speed shouted ‘‘ ‘[fuck] you’ ’’ and extended
his middle finger at abortion protesters who were
located considerable distance away, there was no faceto-face contact between passenger and protesters, no

App.19

protester was offended or even acknowledged passenger’s behavior, and entire incident was over in matter
of seconds, ‘‘it was inconceivable that [the passenger’s]
fleeting actions and words would provoke the type of
lawless action’’ necessary to satisfy fighting words standard), cert. dismissed, 522 U.S. 979, 118 S. Ct. 439, 139
L. Ed. 2d 377 (1997).
Finally, the defendant claims that the Appellate Court
correctly concluded that the present case is governed
by our analysis and conclusion in State v. Baccala,
supra, 326 Conn. 232, in which we determined that the
vulgar language at issue in that case did not constitute
fighting words.We reject this argument because Baccala is distinguishable from the present case in a number of material respects.13
Before doing so, however, it is necessary to recite
the relevant facts of Baccala and the reasons we
reached the conclusion we did. Those facts, as
explained in our decision in that case, are as follows.
‘‘On the evening of September 30, 2013, the defendant
[Nina C. Baccala] telephoned the Stop & Shop supermarket in Vernon to announce that she was coming to
pick up a Western Union money transfer so they would
not close the customer service desk before she arrived.
[Baccala] spoke with Tara Freeman, an experienced
assistant store manager who was in charge of the daily
operations at the supermarket . . . . Freeman
informed [Baccala] that the customer service desk
already had closed and that she was unable to access the
computer that processed Western Union transactions.
[Baccala] became belligerent, responded that she ‘really
didn’t give a shit,’ and called Freeman ‘[p]retty much
every swear word you can think of’ before the call
was terminated.
‘‘Despite Freeman’s statements to the contrary, [Baccala] believed that as long as she arrived at the supermarket before 10 p.m., she should be able to obtain
the money transfer before the customer service desk
closed. Accordingly, a few minutes after she telephoned, [Baccala] arrived at the supermarket, which
was occupied by customers and employees. [She] proceeded toward the customer service desk located in
proximity to the registers for grocery checkout and
began filling out a money transfer form, even though
the lights at the desk were off. Freeman approached
[Baccala], a forty year old woman who used a cane due
to a medical condition that caused severe swelling in
her lower extremities, and asked her if she was the
person who had called a few minutes earlier. Although
[Baccala] denied that she had called, Freeman recognized her voice. After Freeman informed [Baccala], as
she had during the telephone call, that the customer
service desk was closed, [Baccala] became angry and
asked to speak with a manager. Freeman replied that
she was the manager and pointed to her name tag and

App.20

a photograph on the wall to confirm her status. [Other]
employees . . . were standing nearby as this exchange
took place.
‘‘[Baccala] proceeded to loudly call Freeman a ‘fat
ugly bitch’ and a ‘cunt,’ and said ‘fuck you, you’re not a
manager,’ all while gesticulating with her cane. Despite
[Baccala’s] crude and angry expressions . . . Freeman
remained professional. She simply responded, ‘[h]ave
a good night,’ which prompted [Baccala] to leave the
supermarket.’’ Id., 235–36. Following a jury trial, Baccala was convicted of breach of the peace in the second
degree in violation of § 53a-181 (a) (5). Id., 233–34, 236.
On appeal to this court, we agreed with Baccala that her
conviction was incompatible with the first amendment.
See id., 234–35.
We began our analysis of Baccala’s claim with the
observation that the language she used was both
extremely offensive and intentionally demeaning. Id.,
251. We nevertheless concluded that her utterances did
not rise to the level of fighting words because, under
the circumstances, they were not likely to trigger an
immediate violent response by the average person in
Freeman’s position. Id., 254. In reaching this conclusion,
we relied primarily on four considerations relative to
the circumstances of the encounter. First, the verbal
assault that Baccala launched against Freeman on the
telephone placed Freeman on notice of the possibility
that Baccala would resort to similar language when she
arrived at the supermarket a few minutes later. Id., 252.
Second, as a person in an ‘‘authoritative [position] of
management and control,’’ Freeman would be expected
to diffuse such a hostile situation by ‘‘model[ing] appropriate, responsive behavior, aimed at de-escalating the
situation,’’ both for the sake of other customers and
store personnel alike. Id., 253. Third, as a store manager,
Freeman had a measure of control over the premises
insofar as she could demand that Baccala leave if she
became abusive, threaten to have Baccala arrested for
trespassing if she didn’t leave, and follow through on
that threat if necessary. Id., 253. Fourth, there was no
reason to think that Freeman’s professional and
restrained response to Baccala’s offensive harangue
was atypical of the manner in which an average person
in Freeman’s position would have responded to the
same provocation under the same circumstances. See
id., 253–54.
In the present case, the first three of the foregoing
factors support the conclusion that the defendant’s
utterances were, in fact, fighting words. In contrast to
the notice Freeman had received with respect to the
likelihood of an angry and offensive, face-to-face outburst by Baccala, McCargo had no forewarning of the
verbal abuse that the defendant inflicted on him. Unlike
Freeman, McCargo was not acting in a supervisory
capacity with respect to the safety and well-being of

App.21

others. Nor did he have any degree of control over
the area in which his encounter with the defendant
took place.
Only the fourth factor we considered in Baccala—
the fact that Freeman did not resort to violence in
responding to the verbal provocation she confronted—
militates against a finding that the average person in
the same situation as McCargo, who also refrained from
any physical retaliation, likely would have had an immediate violent response to the defendant’s verbal attack.
In Baccala, however, our conclusion that the response
of the average supermarket manager in Freeman’s situation probably would be no different from Freeman’s
necessarily was predicated on the existence of the first
three factors discussed—none of which is present here.
Moreover, in Baccala, we expressly acknowledged that
we might have reached a different conclusion if Baccala
had directed the same language at Freeman after Freeman had completed work and left the supermarket. Id.,
253. Notably, that situation—in which Freeman would
not have been acting in a managerial or supervisory
capacity, had no real control over the relevant premises,
and was more or less alone with Baccala—is much
more like the circumstances McCargo found himself in
when he was accosted by the defendant.
Finally, we agree with the observation that ‘‘[r]acial
insults, relying as they do on the unalterable fact of the
victim’s race and on the history of slavery and race
discrimination in this country, have an even greater
potential for harm than other insults.’’ R. Delgado,
‘‘Words That Wound: A Tort Action for Racial Insults,
Epithets, and Name-Calling,’’ 17 Harv. C.R.-C.L. L. Rev.
133, 143 (1982); see id., 135–36 (explaining that such
insult ‘‘injures the dignity and self-regard of the person
to whom it is addressed, communicating the message
that distinctions of race are distinctions of merit, dignity, status, and personhood’’); see also Matusick v.
Erie County Water Authority, 757 F.3d 31, 38 n.3 (2d
Cir. 2014) (observing that word ‘‘nigger’’ has ‘‘unique
. . . power to offend, insult, and belittle’’); Toussaint
v. Brigham & Women’s Hospital, Inc., 166 F. Supp. 3d
110, 116 n.4 (D. Mass. 2015) (‘‘[t]he word ‘nigger’ has
unique meaning that makes its use particularly egregious’’). In light of the uniquely injurious and provocative nature of the term, we also agree that its use is all
the more likely to engender the kind of violent reaction
that distinguishes fighting words from the vast majority
of words that, though also offensive and provocative,
are nevertheless constitutionally protected.
For all the foregoing reasons, we conclude that the
language the defendant used to demean, intimidate and
anger McCargo were fighting words likely to provoke
a violent response from a reasonable person under the
circumstances. Because the first amendment does not
shield such speech from prosecution, the state was free

App.22

to use it to obtain the defendant’s conviction of breach
of the peace in the second degree, which, as we have
explained, is supported by the evidence. Because the
Appellate Court reached a contrary conclusion, that
portion of its judgment reversing the defendant’s conviction on that charge cannot stand.
The judgment of the Appellate Court is reversed with
respect to the defendant’s conviction of breach of the
peace in the second degree only and the case is
remanded to that court with direction to affirm the
judgment of conviction on that charge; the judgment
of the Appellate Court is affirmed in all other respects.
In this opinion the other justices concurred.
* This case originally was scheduled to be argued before a panel of this
court consisting of Chief Justice Robinson and Justices Palmer, McDonald,
D’Auria, Mullins, Kahn and Ecker. Although Justice McDonald was not
present when the case was argued before the court, he has read the briefs
and appendices, and listened to a recording of oral argument prior to participating in this decision.
The listing of justices reflects their seniority status on this court as of
the date of oral argument.
** August 27, 2020, the date that this decision was released as a slip
opinion, is the operative date for all substantive and procedural purposes.
1
General Statutes § 53a-181 (a) provides in relevant part: ‘‘A person is
guilty of breach of the peace in the second degree when, with intent to
cause inconvenience, annoyance or alarm, or recklessly creating a risk
thereof, such person . . . (5) in a public place, uses abusive or obscene
language or makes an obscene gesture . . . .’’
2
The first amendment to the United States constitution provides in relevant part: ‘‘Congress shall make no law . . . abridging the freedom of
speech . . . .’’
The first amendment prohibition against laws abridging the freedom of
speech is made applicable to the states through the due process clause
of the fourteenth amendment to the United States constitution. E.g., 44
Liquormart, Inc. v. Rhode Island, 517 U.S. 484, 489 n.1, 116 S. Ct. 1495, 134
L. Ed. 2d 711 (1996)
3
The trial court also found the defendant guilty of tampering with a
witness in violation of General Statutes § 53a-151. See footnote 4 of this
opinion. On the charge of breach of the peace in the second degree, the
court sentenced the defendant to a term of imprisonment of six months,
execution suspended, followed by two years of probation with several conditions, plus a $1000 fine; on the charge of tampering with a witness, the court
sentenced the defendant to a consecutive term of imprisonment of four
years, execution suspended, followed by four years of probation with the
same conditions and a $3000 fine. The defendant’s conviction of tampering
with a witness, which thereafter was upheld by the Appellate Court; see
State v. Liebenguth, 181 Conn. App. 37, 58, 186 A.3d 39 (2018); is not the
subject of this appeal. Unless otherwise noted, all references hereinafter to
the defendant’s conviction are to his conviction of breach of the peace in
the second degree.
4
The evidence adduced at trial also established that, on March 6, 2015,
while his criminal case was pending, the defendant sent an e-mail to
McCargo’s supervisor at the New Canaan Parking Department indicating
that he would press felony charges against McCargo and cause McCargo to
lose his job if he appeared in court at the defendant’s criminal trial and
testified against him. See State v. Liebenguth, supra, 181 Conn. App. 42.
The e-mail further stated that the defendant would not take such action
against McCargo if he did not appear in court to testify against the defendant.
Id. As the Appellate Court explained, ‘‘[t]he language of the defendant’s
e-mail clearly indicates that the defendant intended to induce McCargo not
to appear in court, insofar as it stated: ‘It goes without mention that if your
meter maid [McCargo] does not show up in court this case will be over and
everyone can go peacefully on their own way, no harm, no foul, no fallout’
and ‘[p]erhaps the judge will remand him to custody right then and there
from his witness chair? Obviously, not if he is not there.’ ’’ Id., 57–58. This
evidence provided the basis for the trial court’s guilty finding with respect

App.23

to the charge of tampering with a witness in violation of General Statutes
§ 53a-151. See footnote 3 of this opinion.
5
We note that the Appellate Court read this statement by the trial court
as reflecting a finding that the defendant took an aggressive stance, was
walking toward McCargo, and moving his hands in an aggressive manner
at the very same time he uttered the words ‘‘fucking niggers.’’ (Internal
quotation marks omitted.) State v. Liebenguth, supra, 181 Conn. App. 49.
As the Appellate Court also observed; see id.; such a finding would be
inconsistent with the trial testimony, which clearly established that the
defendant was seated in his vehicle both times he directed that epithet at
McCargo. In contrast to the Appellate Court, however, we do not understand
the trial court to have found that the conduct referred to occurred simultaneously with the offensive utterances. Rather, we read the decision’s reference
to that conduct as consistent with the record; see, e.g., Lauer v. Zoning
Commission, 220 Conn. 455, 470, 600 A.2d 310 (1991) (reviewing court reads
arguably ambiguous trial court record to support, rather than to undermine,
its judgment); that is, as reflecting a finding by the trial court only that the
conduct was relevant to the broader context in which the defendant’s epithets were uttered, which it certainly was. In any event, we, like the Appellate
Court, resolve the issue on appeal predicated on the testimony adduced at
trial, which is not disputed for purposes of this appeal.
6
As we discuss more fully hereinafter, in Baccala, we concluded that the
conviction of the defendant in that case—also for breach of the peace in
the second degree in violation of § 53a-181 (a) (5)—had to be reversed,
despite the vile and personally demeaning nature of the gender based epithets on which that conviction was predicated, in light of our determination
that the defendant’s speech was entitled to first amendment protection
because it was not likely to evoke a violent response from a reasonable
person under the circumstances presented. See State v. Baccala, supra, 326
Conn. 251–56.
7
Specifically, we certified the following issue: ‘‘Did the Appellate Court
properly conclude that the defendant’s conviction for breach of the peace
in the second degree had to be reversed in light of the holding in [Baccala]
. . . ?’’ (Citation omitted.) State v. Liebenguth, supra, 330 Conn. 901.
8
The defendant makes no claim that, in the event we disagree with the
Appellate Court that his speech was protected by the first amendment to
the United States constitution, his conviction nevertheless was barred by
the free speech provisions of article first, §§ 4 and 5, of the Connecticut
constitution. We therefore have no occasion to consider whether the fighting
words exception to the protection afforded speech under the first amendment also constitutes an exception to the free speech guarantees of the
state constitution and, if so, whether its scope is coextensive with that of
the exception recognized under the first amendment.
9
In this regard, we observed in Baccala that, ‘‘[i]n this day and age, the
notion that any set of words are so provocative that they can reasonably
be expected to lead an average listener to immediately respond with physical
violence is highly problematic.’’ (Emphasis omitted; internal quotation marks
omitted.) State v. Baccala, supra, 326 Conn. 239. Although the United States
Supreme Court has not upheld a conviction under the fighting words doctrine
since Chaplinsky; e.g., C. Calvert, ‘‘First Amendment Envelope Pushers:
Revisiting the Incitement-to-Violence Test with Messrs. Brandenburg,
Trump, & Spencer,’’ 51 Conn. L. Rev. 117, 149 (2019); and, despite scholarly
criticism of the doctrine; see, e.g., W. Reilly, Note, ‘‘Fighting the Fighting
Words Standard: A Call for Its Destruction,’’ 52 Rutgers L. Rev. 947, 947–49
(2000); Note, ‘‘The Demise of the Chaplinsky Fighting Words Doctrine: An
Argument for Its Interment,’’ 106 Harv. L. Rev. 1129, 1140–46 (1993); the
court has never disavowed the doctrine and, from time to time, has referred
to it, albeit in dicta, as one of the few historic exceptions to the first
amendment’s prohibition against content based restrictions on speech. See,
e.g., Brown v. Entertainment Merchants Assn., 564 U.S. 786, 791, 131 S.
Ct. 2729, 180 L. Ed. 2d 708 (2011) (‘‘From 1791 to the present . . . the [f]irst
[a]mendment has permitted restrictions [on] the content of speech in a
few limited areas, and has never include[d] a freedom to disregard these
traditional limitations. . . . These limited areas . . . such as . . . fighting
words . . . represent well-defined and narrowly limited classes of speech,
the prevention and punishment of which have never been thought to raise
any [c]onstitutional problem . . . .’’ (Citations omitted; internal quotation
marks omitted.)); Virginia v. Black, 538 U.S. 343, 359, 123 S. Ct. 1536, 155
L. Ed. 2d 535 (2003) (‘‘[A] [s]tate may punish those words [that] by their
very utterance inflict injury or tend to incite an immediate breach of the

App.24

peace. . . . [C]onsequently . . . fighting words—those personally abusive
epithets [that], when addressed to the ordinary citizen, are, as a matter of
common knowledge, inherently likely to provoke a violent reaction—are
generally proscribable under the [f]irst [a]mendment.’’ (Citations omitted;
internal quotation marks omitted.)). In any event, the defendant makes no
claim that the fighting words doctrine is a dead letter for federal constitutional purposes; he claims, rather, that the words he used were not fighting
words and, consequently, that his conviction based on those words is prohibited by the first amendment. In addition, as we previously noted; see footnote
8 of this opinion; the defendant does not raise a claim under the state constitution.
10
New Dictionary of American Slang (R. Chapman ed., 1986) p. 151.
11
The defendant relies on the following cases in which the court determined that certain words directed at a police officer were not fighting words:
Kennedy v. Villa Hills, 635 F.3d 210, 215–16 (6th Cir. 2011) (calling police
officer ‘‘ ‘son of a bitch’ ’’ and ‘‘a ‘fat slob’ ’’); Johnson v. Campbell, 332 F.3d
199, 203, 215 (3d Cir. 2003) (calling police officer who was conducting stop
‘‘ ‘son of a bitch’ ’’); Duran v. Douglas, 904 F.2d 1372, 1377 (9th Cir. 1990)
(shouting profanities and making obscene gestures at police officer); Barboza v. D’Agata, 151 F. Supp. 3d 363, 367, 371–72 (S.D.N.Y. 2015) (‘‘[f]uck
your shitty town bitches’’ written on payment form accompanying speeding
ticket); State v. Nelson, 38 Conn. Supp. 349, 351 n.1, 355, 448 A.2d 214 (App.
Sess. 1982) (calling police officer ‘‘ ‘fucking asshole, a fucking pig’ ’’).
12
We note, however, that there is nothing in the record to indicate that
McCargo received any special training on how to deal with persons who
become unusually irate or insulting upon being issued a parking ticket.
13
We note that the defendant further contends that the trial court’s requirement that he undergo a cultural diversity course prescribed and approved
by his probation officer evidences that the trial court’s guilty finding ‘‘constitutes a unique and unprecedented attempt to criminalize incivility or racist
attitudes.’’ We disagree. The probationary condition falls squarely within
the court’s considerable sentencing discretion, and, indeed, it is obviously
well-founded in light of the defendant’s conceded language and conduct.

App.25

****************************************************************
The ‘‘officially released’’ date that appears near the
beginning of this opinion is the date the opinion was
released as a slip opinion. The operative date for the
beginning of all time periods for filing postopinion
motions and petitions for certification is the ‘‘officially
released’’ date appearing in the opinion.
This opinion is subject to revisions and editorial
changes, not of a substantive nature, and corrections
of a technical nature prior to publication in the
Connecticut Law Journal.
****************************************************************

App.26

STATE v. LIEBENGUTH—FIRST CONCURRENCE

KAHN, J. I agree with and join the majority’s opinion,
reversing the judgment of the Appellate Court with
respect to the conviction of the defendant, David G.
Liebenguth, of breach of the peace in the second degree
and remanding the case with direction to affirm the
trial court’s judgment of conviction on that charge. I
write separately, however, to reiterate my opinion that
‘‘[t]he continuing vitality of the fighting words exception
is dubious and the successful invocation of that exception is so rare that it is practically extinct.’’ State v.
Parnoff, 329 Conn. 386, 411, 186 A.3d 640 (2018) (Kahn,
J., concurring in the judgment). Despite the diminished
scope of the fighting words doctrine, ‘‘I assume that
the . . . exception remains valid for now, but [remain]
. . . mindful that the exception is narrowly construed
. . . .’’ Id., 414. To the extent that the doctrine is viable,
I agree with the majority, as well as Justice Ecker’s
concurring opinion and Judge Devlin’s well reasoned
view, that when the ‘‘ ‘viciously hostile epithet,’ which
has deep roots in this nation’s long and deplorable history of racial bigotry and discrimination,’’ is used to
demean and humiliate a person,1 it constitutes fighting
words. See State v. Liebenguth, 181 Conn. App. 37,
64–65, 186 A.3d 39 (2018) (Devlin, J., concurring in part
and dissenting in part). I also note, in particular, that
I disagree with the holding and reasoning of State v.
Baccala, 326 Conn. 232, 241–42 and n.7, 163 A.3d 1,
cert. denied,
U.S.
, 138 S. Ct. 510, 199 L. Ed. 2d
408 (2017), to the extent that the case stands for the
proposition that personal attributes of the addressee
such as age, gender, race, and status should be considered when determining whether a reasonable person
with those characteristics was likely to respond with
violence. Regardless of my ongoing reservations, the
majority has correctly applied precedent from the
United States Supreme Court and this court to which
we remain beholden.
It is axiomatic that the right to free speech is a bedrock principle of the United States, one so essential
that the formation of our nation was predicated on its
inclusion in the first amendment of the United States
constitution. See U.S. Const., amend. I. The right to free
speech, however, is not absolute, and the United States
Supreme Court has delineated the circumstances under
which words fall outside the protections of the first
amendment. One such circumstance is speech that constitutes fighting words. The United States Supreme
Court first articulated the doctrine in the seminal case
of Chaplinsky v. New Hampshire, 315 U.S. 568, 572,
62 S. Ct. 766, 86 L. Ed. 1031 (1942). In that case, the
court carved out an exception to protections afforded
free speech for words ‘‘which by their very utterance
inflict injury or tend to incite [violence] . . . .’’ Id.; see

App.27

also Cohen v. California, 403 U.S. 15, 20, 91 S. Ct. 1780,
29 L. Ed. 2d 284 (1971); State v. Baccala, supra, 326
Conn. 237. In the more than seventy-five years since
Chaplinsky was decided, both the United States
Supreme Court and the dictates of changing societal
norms have diminished the scope and applicability of
the fighting words exception.2 See Note, ‘‘The Demise
of the Chaplinsky Fighting Words Doctrine: An Argument for Its Interment,’’ 106 Harv. L. Rev. 1129, 1129
(1993).
The United States Supreme Court has narrowed the
application of the fighting words doctrine, including
limiting it to ‘‘those personally abusive epithets which,
when addressed to the ordinary citizen, are, as a matter
of common knowledge, inherently likely to provoke
violent reaction’’; Cohen v. California, supra, 403 U.S.
20; thereby ‘‘seemingly abandon[ing] the suggestion in
Chaplinsky that there are words that by their very utterance inflict injury . . . .’’ (Internal quotation marks
omitted.) State v. Parnoff, supra, 329 Conn. 411–12
(Kahn, J., concurring in the judgment); see also Note,
supra, 106 Harv. L. Rev. 1129. Contemporaneous with
judicial constriction of the fighting words exception,
societal norms have also evolved, rendering ‘‘public
discourse . . . more coarse . . . [and resulting in]
fewer combinations of words and circumstances that
are likely to fit within the fighting words exception.
Indeed, given some of the examples of egregious language that have not amounted to fighting words following Chaplinsky, it is difficult to imagine examples that
rise to the requisite level today.’’ (Citation omitted;
internal quotation marks omitted.) State v. Parnoff,
supra, 413 (Kahn, J., concurring in the judgment); see
also State v. Baccala, supra, 326 Conn. 239 (calling
someone racketeer or fascist, deemed fighting words
in Chaplinsky, ‘‘would be unlikely to even raise an
eyebrow today’’); State v. Tracy, 200 Vt. 216, 237, 130
A.3d 196 (2015) (‘‘in this day and age, the notion that
any set of words are so provocative that they can reasonably be expected to lead an average listener to immediately respond with physical violence is highly problematic’’ (emphasis in original)).
This judicial constriction, overlaid with current societal norms, calls into question the continued vitality of
the fighting words exception. See Note, supra, 106 Harv.
L. Rev. 1146. Regardless, ‘‘against this small and tortured canvas, the fighting words exception resurfaces
occasionally,’’ and the United States Supreme Court
‘‘continues to list fighting words among the exceptions
to first amendment protection. . . . Therefore, I
assume that the fighting words exception remains valid
for now, but [remain] . . . mindful that the exception
is narrowly construed and poses a significant hurdle
for the state to overcome.’’ (Citation omitted.) State v.
Parnoff, supra, 329 Conn. 413–14 (Kahn, J., concurring
in the judgment).

App.28

When determining whether the fighting words exception applies in a given case, the court must consider
both ‘‘the words used by the defendant’’ and ‘‘the circumstances in which they were used . . . .’’ State v.
Szymkiewicz, 237 Conn. 613, 620, 678 A.2d 473 (1996).
This court recently stated that ‘‘[a] proper examination
of context also considers those personal attributes of
the speaker and the addressee that are reasonably
apparent because they are necessarily a part of the
objective situation in which the speech was made.’’
State v. Baccala, supra, 326 Conn. 241. ‘‘[W]hen there
are objectively apparent characteristics that would bear
on the likelihood of [a violent] response, many courts
have considered the average person with those characteristics. Thus, courts also have taken into account the
addressee’s age, gender, and race.’’ Id., 243. The majority in the present case agrees that, ‘‘because the fighting
words exception is intended only to prevent the likelihood of an actual violent response, it is an unfortunate
but necessary consequence that we are required to differentiate between addressees who are more or less
likely to respond violently and speakers who are more
or less likely to elicit such a response.’’ (Internal quotation marks omitted.), quoting State v. Baccala, supra,
249. I disagree with this proposition to the extent that
it allows for consideration of the addressee’s characteristics beyond ‘‘whether the addressee’s position would
reasonably be expected to cause him or her to exercise
a higher degree of restraint than the ordinary citizen
under the circumstances’’ when determining whether
he or she would respond violently.3 State v. Baccala,
supra, 245.
The ultimate inquiry of the fighting words exception
is whether a speaker’s words would reasonably result
in a violent reaction by its intended recipient. See, e.g.,
Cohen v. California, supra, 403 U.S. 20. Considering
the stereotypes associated with immutable characteristics of the addressee, however, produces discriminatory
results ‘‘because its application depends on assumptions about how likely a listener is to respond violently
to speech.’’ W. Reilly, ‘‘Fighting the Fighting Words Standard: A Call for Its Destruction,’’ 52 Rutgers L. Rev. 947,
948 (2000). This approach essentially requires courts
to promulgate stereotypes on the basis of race, gender,
age, disability, ethnicity, and sexual orientation, among
others, and has led to much of the scholarly criticism
of the fighting words exception. See generally Note,
supra, 106 Harv. L. Rev. 1129.
I will refrain from enumerating a laundry list of a
stereotypes related to violent responses from which
flow myriad discriminatory results, but I illustrate one
example of a common refrain in society and courts:
women are less likely than men to react to offensive
situations with physical violence. Id., 1134. Allowing
such a stereotype into the analysis of whether a reason-

App.29

able person in the addressee’s circumstances is likely
to respond to words with violence creates a situation
in which ‘‘almost nothing one could say to a woman
would be proscribed by the fighting words doctrine
. . . .’’ W. Reilly, supra, 52 Rutgers L. Rev. 948. The
overarching result is that groups of people that, for
example, are stereotyped as docile due to their gender
or ethnicity, or who have physical limitations due to
their age or disability that prevent them from
responding violently—the precise groups that face persistent discrimination—must endure a higher level of
offensive speech before being afforded legal remedies
that comport with our constitution. From the speaker’s
perspective, such a result allows him or her to more
readily and viciously verbally assault certain oppressed
groups without fear of criminal prosecution.
Although I have strong reservations about the viability and application of the fighting words doctrine
because it leads to consideration of stereotypical propensities for violence when assessing an addressee’s
likely response to the speaker’s words, I recognize that
the fighting words exception remains binding United
States Supreme Court precedent. As such, I agree with
the majority’s conclusion that the defendant’s use of the
phrases ‘‘fucking niggers’’ and to ‘‘remember Ferguson’’
during his encounter with Michael McCargo were likely
to provoke a violent response from a reasonable person
under the circumstances and, therefore, constituted
fighting words not entitled to protection under the first
amendment. Although there are no per se fighting
words, and statements must be assessed in the context
in which they are made, the highly offensive, degrading,
and humiliating racial slur that the defendant used is
one of the most volatile terms in the English language,
and, therefore, it does not stretch logic to conclude that
its use in this context would likely cause a reasonable
person to respond with violence.
For the foregoing reasons, I respectfully concur.
1

I completely agree with the majority that the racial epithet is particularly
demeaning and hostile when used toward an African-American person,
thereby likely to provoke a violent reaction. I would not, however, preclude
a situation in which the same language directed at a non-African American
could result in a similar reaction. By way of example, if the same racial
slurs were directed with the same intent to an African-American child in
the presence of her or his non-African-American parent, that parent may
have a similar visceral reaction of violence.
2
Even if the fighting words doctrine were obsolete, the defendant’s conduct could have constituted a violation under other provisions of our criminal
statutes, such as General Statutes § 53a-181 (a) (1). In this case, the state
charged the defendant with breach of the peace under § 53a-181 (a) (5), the
provision that proscribes speech. The defendant, however, engaged in both
speech and conduct that could have supported a charge under § 53a-181
(a) (1), which provides that ‘‘[a] person is guilty of breach of the peace in
the second degree when, with intent to cause inconvenience, annoyance or
alarm, or recklessly creating a risk thereof, such person: (1) Engages in
fighting or in violent, tumultuous or threatening behavior in a public place
. . . .’’ Alternatively, the state could also have charged the defendant with
disorderly conduct under General Statutes § 53a-182 (a) (1) or (2). Although
‘‘the correct application of the exception to first amendment protection is
not based on the charge or charges leveled against the defendant but, rather,

App.30

on the state’s theory of the case,’’ by focusing on speech only, the state
relied on the fighting words, rather than the true threat, exception to first
amendment protection. State v. Parnoff, supra, 329 Conn. 407 (Kahn, J.,
concurring in the judgment). The point remains that it is the state that
determines on which charge and on which exception to first amendment
protection it chooses to rely. The state should consider the wisdom of
continuing to pursue a doctrine that has been often criticized and rarely
upheld.
3
I observe that the United States Supreme Court has suggested that
whether the addressee is a police officer should be considered because ‘‘a
properly trained officer may reasonably be expected to exercise a higher
degree of restraint than the average citizen, and thus be less likely to respond
belligerently to fighting words.’’ (Emphasis added; internal quotation marks
omitted.) Houston v. Hill, 482 U.S. 451, 462, 107 S. Ct. 2502, 96 L. Ed. 2d
398 (1987), quoting Lewis v. New Orleans, 415 U.S. 130, 135, 94 S. Ct. 970,
39 L. Ed. 2d 214 (1974) (Powell, J., concurring in the result); see also State
v. Baccala, supra, 326 Conn. 263–64 (Eveleigh, J., concurring in part and
dissenting in part). ‘‘Nevertheless, this court has expressly adopted a narrower application of the fighting words standard for speech addressed to
police officer[s],’’ at least in some contexts. State v. Baccala, supra, 264
(Eveleigh, J., concurring in part and dissenting in part); see also State v.
DeLoreto, 265 Conn. 145, 163, 827 A.2d 671 (2003) (‘‘a narrower class of
statements constitutes fighting words when spoken to police officers, rather
than to ordinary citizens, because of the communicative value of such statements’’). To the extent that these cases do not rely on stereotypes related
to an addressee’s race, gender, age, disability, ethnicity, sexual orientation,
or other immutable characteristics, they do not raise the concerns typically
associated with the application of the doctrine.

App.31

****************************************************************
The ‘‘officially released’’ date that appears near the
beginning of this opinion is the date the opinion was
released as a slip opinion. The operative date for the
beginning of all time periods for filing postopinion
motions and petitions for certification is the ‘‘officially
released’’ date appearing in the opinion.
This opinion is subject to revisions and editorial
changes, not of a substantive nature, and corrections
of a technical nature prior to publication in the
Connecticut Law Journal.
****************************************************************

App.32

STATE v. LIEBENGUTH—SECOND CONCURRENCE

ECKER, J., concurring. I join the majority opinion
because we are bound by United States Supreme Court
precedent to apply the fighting words doctrine as currently formulated, and, in my view, the majority reaches
the correct result applying that doctrine to the facts
of the present case. I write separately lest my silence
otherwise be misunderstood as an endorsement of this
deeply flawed doctrine.1 I also wish to draw attention
to the looming question that comes into increasingly
sharp focus with every decision issued by this court on
the topic. That question is whether there may be a more
sensible first amendment framework that would better
serve to justify the outcome reached today in a manner
that fully honors our government’s commitment to freedom of speech without, in the process, sacrificing our
ability to regulate a narrow category of malicious hate
speech—which, for present purposes, may be defined
as speech communicated publicly to an addressee, in
a face-to-face encounter, using words or images that
demean the addressee on the basis of his or her race,
color, national origin, ethnicity, religion, gender, sexual
orientation, disability, or like trait, under circumstances
indicating that the speaker intends thereby to cause the
addressee severe psychic pain. I do not know when the
United States Supreme Court will acknowledge that the
current doctrine is untenable or whether it will consider
replacing it with a reformulated doctrine focused on
the government’s interest in regulating hate speech.
Nor do I know whether such a hate speech doctrine
ultimately would pass muster under the first amendment. Sooner or later, however, I believe that it will
become necessary to either shift doctrinal paradigms
or admit failure because it has become evident that the
existing fighting words doctrine does not provide a
sound or viable means to draw constitutional lines in
this area.
I
I agree wholeheartedly with my colleagues that the
words and sentiments expressed by the defendant,
David B. Liebenguth, were vile, repugnant and morally
reprehensible. He selected his words for their cruelty
and used them as a weapon to inflict psychic wounds as
painful, or more so, than physical ones. The defendant
crossed a particular line that should never be crossed
by anyone in America and then crossed that line again
by engaging in after-the-fact conduct indicating a complete lack of contrition. See footnote 4 of the majority
opinion. The views expressed in this concurring opinion
should not be construed in any way to excuse, defend,
or otherwise condone the defendant’s words or accompanying conduct.
This brings me directly to the point. I believe that

App.33

we need not scratch too deeply beneath the surface to
see that the defendant is being punished criminally for
the content of his speech. It is the reprehensible content
of the speech that propels our desire to prohibit it.
Indeed, one very particular meaning intended by the
defendant’s language is behind this prosecution. The
criminality of the defendant’s speech does not inhere
in his use of the word ‘‘nigger’’ itself because that word
can mean very different things depending on the identity, race, affiliation, and cultural milieu of the speaker
and the addressee. See R. Kennedy, ‘‘The David C. Baum
Lecture: ‘Nigger!’ as a Problem in the Law,’’ 2001 U. Ill.
L. Rev. 935, 937.2 The criminality of the defendant’s
speech derives from his use of the word as a term
of oppression, contempt, and debasement rather than
affection or brotherhood.
Therein lies the difficulty under the first amendment,
because the quintessential teaching of the constitutional prohibition against any law abridging the freedom
of speech is that the government cannot proscribe
speech on the basis of content. ‘‘[A]bove all else,’’ Justice Thurgood Marshall famously observed, ‘‘the [f]irst
[a]mendment means that government has no power to
restrict expression because of its message, its ideas, its
subject matter, or its content.’’ Police Dept. v. Mosley,
408 U.S. 92, 95, 92 S. Ct. 2286, 33 L. Ed. 2d 212 (1972);
accord Brown v. Entertainment Merchants Assn., 564
U.S. 786, 790–91, 131 S. Ct. 2729, 180 L. Ed. 2d 708
(2011); Ashcroft v. American Civil Liberties Union,
535 U.S. 564, 573, 122 S. Ct. 1700, 152 L. Ed. 2d 771
(2002); see Reed v. Gilbert, 576 U.S. 155, 163, 135 S. Ct.
2218, 192 L. Ed. 2d 236 (2015) (‘‘[c]ontent-based laws—
those that target speech based on its communicative
content—are presumptively unconstitutional and may
be justified only if the government proves that they are
narrowly tailored to serve compelling state interests’’);
R. A. V. v. St. Paul, 505 U.S. 377, 382, 112 S. Ct. 2538,
120 L. Ed. 2d 305 (1992) (‘‘[t]he [f]irst [a]mendment
generally prevents [the] government from proscribing
speech . . . or even expressive conduct . . . because
of disapproval of the ideas expressed’’ (citations omitted)); see also footnote 8 of this opinion. Speech that
offends, provokes, or disrupts cannot be censored by
the government merely because it roils calm waters or
contravenes our collective sense of civilized discourse.
Although the content of such speech at times may be
extremely difficult to tolerate, and its value may be
impossible to discern, we must never forget that ‘‘a
function of free speech under our system of government
is to invite dispute. It may indeed best serve its high
purpose when it induces a condition of unrest, creates
dissatisfaction with conditions as they are, or even stirs
people to anger. Speech is often provocative and challenging. It may strike at prejudices and preconceptions
and have profound unsettling effects as it presses for
acceptance of an idea. That is why freedom of speech,

App.34

though not absolute . . . is nevertheless protected
against censorship or punishment, unless shown likely
to produce a clear and present danger of a serious
substantive evil that rises far above public inconvenience, annoyance, or unrest. . . . There is no room
under our [c]onstitution for a more restrictive view.
For the alternative would lead to standardization of
ideas either by legislatures, courts, or dominant political
or community groups.’’ (Citations omitted.) Terminillo v. Chicago, 337 U.S. 1, 4–5, 69 S. Ct. 894, 93 L. Ed.
1131 (1949).
The fighting words doctrine is among the very few
exceptions to this rule. ‘‘[T]he [f]irst [a]mendment has
‘permitted restrictions upon the content of speech in a
few limited areas’ ’’ consisting of ‘‘ ‘historic and traditional categories long familiar to the bar’ . . . including obscenity . . . defamation . . . fraud . . . incitement . . . and speech integral to criminal conduct
. . . .’’ (Citations omitted.) United States v. Stevens,
559 U.S. 460, 468, 130 S. Ct. 1577, 176 L. Ed. 2d 435
(2010); see also R. A. V. v. St. Paul, supra, 505 U.S. 383,
386 (listing exceptions, including fighting words). The
fighting words doctrine, in modified form, appears to
remain good law despite widespread criticism and a
distinctly underwhelming track record in its place of
origin, the United States Supreme Court.3 See State v.
Parnoff, 329 Conn. 386, 411, 186 A.3d 640 (2018) (Kahn,
J., concurring in the judgment) (‘‘[t]he continuing vitality of the fighting words exception is dubious and the
successful invocation of that exception is so rare that
it is practically extinct’’).
I understand that we must adhere to the fighting
words doctrine until the United States Supreme Court
says otherwise. But, although the majority opinion does
an admirable job fashioning a silk purse out of this
particular sow’s ear, I believe that we are better off in
the end expressing our concerns openly and displaying
a more determined preference for avoiding further
entanglement with this untenable doctrine.4 In my view,
this court’s own engagement with the fighting words
doctrine to date has resulted in a series of decisions
embedding us more deeply in the doctrinal quicksand
each time we undertake the futile task of drawing constitutional distinctions between one person’s lyric and
another’s vulgarity.5 I fear that the doctrine we have
embraced disserves us more than we acknowledge by
inducing us to believe, or act as if we believe, that we
are able to discern a constitutional line distinguishing
one angry person screaming a race-based epithet at a
municipal parking enforcement officer from another
angry person screaming a gender-based epithet at a
store manager. See State v. Baccala, 326 Conn. 232,
235–36, 256, 163 A.3d 1 (calling assistant manager of
grocery store ‘‘a ‘fat ugly bitch’ and a ‘cunt’ ’’ did not
constitute fighting words and, therefore, warranted constitutional protection under first amendment), cert.

App.35

denied,
U.S.
408 (2017).

, 138 S. Ct. 510, 199 L. Ed. 2d
II

The profound and intractable problems inherent in
the fighting words doctrine become evident the moment
we examine the legal standard that our court uses to
determine whether a defendant’s speech falls within its
scope. The majority correctly describes the analysis.
Fighting words is speech that is ‘‘likely to provoke a
violent response under the circumstances in which [the
words] were uttered . . . .’’ Id., 234. The doctrine purports not to be concerned with the content of the speech
per se but, rather, the ‘‘likelihood of violent retaliation.’’
Id., 240. Thus, unlike the situation described by George
Carlin in his classic comedic monologue about government censorship of obscene language, ‘‘Seven Words
You Can Never Say on Television,’’6 there is no predetermined list of proscribed fighting words or phrases; context is everything. As the majority aptly observes, ‘‘there
are no per se fighting words because words that are
likely to provoke an immediate, violent response when
uttered under one set of circumstances may not be
likely to trigger such a response when spoken in the
context of a different factual scenario.’’ In determining
whether the speech in any particular circumstance is
constitutionally protected, the person performing the
constitutional line drawing must consider ‘‘a host of
factors,’’ including not only the words themselves, but
‘‘the manner and circumstances in which the words
were spoken’’ and ‘‘those personal attributes of the
speaker and addressee that are reasonably apparent
. . . .’’ State v. Baccala, supra, 326 Conn. 240–41; see
id., 242–43 (‘‘[c]ourts have . . . considered the age,
gender, race, and status of the speaker’’ and ‘‘also have
taken into account the addressee’s age, gender, and
race’’). This intensely contextualized and fact specific
inquiry strives to remain ‘‘objective’’ in nature. Id., 247.
For this reason, the issue is not how the actual
addressee in fact responds to the speech, but the likely
response of the average person in the addressee’s
shoes. Id.; see Chaplinsky v. New Hampshire, 315 U.S.
568, 573, 62 S. Ct. 766, 86 L. Ed. 1031 (1942) (‘‘the test
[for determining which words are fighting words] is
what men of common intelligence would understand
would be words likely to cause an average addressee
to fight’’ (internal quotation marks omitted)).
As this description illustrates, the constitutional justification for the fighting words doctrine, as it operates
today, does not rest on the state’s interest in protecting the addressee from the emotional and psychic harm
caused by words ‘‘which by their very utterance inflict
injury . . . .’’7 Chaplinsky v. New Hampshire, supra,
315 U.S. 572. Instead, the current fighting words doctrine
purports to regulate speech on the basis of its incitement effect, i.e., the likelihood of inciting the addressee

App.36

to immediate violence against the speaker. The ascendancy of the incitement rationale as the sole constitutionally legitimate justification for the fighting words
doctrine avoids the appearance, discomfiting to some,
that the state is censoring speech due solely to the
emotional impact that the content of that speech has
on the addressee.8 The allure of the incitement analysis,
in other words, lies in its insistence that it is entirely
unconcerned with the content of the speech under
review and regulates solely on the basis of the ‘‘nonspeech’’ element of the communication. See R. A. V. v.
St. Paul, supra, 505 U.S. 386.
Serious problems arise, however, when we use the
fighting words exception to regulate offensive speech
under the rubric of the incitement rationale. Fighting
words is an unusual subcategory of incitement
speech—the speaker and listener are adversaries rather
than coconspirators, and the speaker ordinarily is not
advocating violence but, rather, speaking words in a
manner likely to stimulate the listener’s anger to the
boiling point.9 The fighting words doctrine permits the
government to prohibit speech that the government
deems likely to incite a physical attack by the addressee
on the speaker himself. Put another way, this category
of speech loses its constitutional protection because it
is deemed likely to ‘‘cause’’ another person to punch
the speaker in the nose (or worse)—a distinctly counterintuitive justification for withdrawing constitutional
protection from the speaker. See Feiner v. New York,
340 U.S. 315, 327 n.9, 71 S. Ct. 303, 95 L. Ed. 295 (1951)
(Black, J., dissenting) (‘‘[T]he threat of one person to
assault a speaker does not justify suppression of the
speech. There are obvious available alternative methods of preserving public order. One of these is to arrest
the person who threatens an assault.’’); B. Caine, ‘‘The
Trouble with ‘Fighting Words’: Chaplinsky v. New
Hampshire Is a Threat to First Amendment Values and
Should Be Overruled,’’ 88 Marq. L. Rev. 441, 507 (2004)
(‘‘[p]unishing the speaker for the violence committed
against the speaker is totally at odds with [first amendment principles]’’); R. Kennedy, supra, 2001 U. Ill. L.
Rev. 942 (‘‘Rather than insisting that the target of the
speech control himself, the doctrine tells the offensive
speaker to shut up. This is odd and objectionable.’’).
I wish to focus on two of the most fundamental problems that infect the doctrine as it has been applied
in Connecticut. First, as Justice Kahn observes in her
concurring opinion, one of the foremost flaws inherent
in the fighting words doctrine is that its application
turns on the adjudicator’s assessment of the addressee’s
physical ability and psychological or emotional proclivity to respond with violence to the speaker’s insulting
words. The majority’s description of the required legal
analysis frankly acknowledges its focus on the speaker’s and the addressee’s respective age, race, gender,
physical condition, and similar characteristics. The doc-

App.37

trine thus confers or withdraws constitutional protection depending on the demographic characteristics of
the relevant individuals; vicious and vile words spoken
by ‘‘a child, a frail elderly person, or a seriously disabled
person’’ may be protected under the first amendment
because ‘‘social conventions . . . [or] special legal protections . . . could temper the likelihood of a violent
response . . . .’’ State v. Baccala, supra, 326 Conn. 242.
And most important, as the majority, quoting State v.
Baccala, supra, 249, acknowledges, ‘‘ ‘an unfortunate
but necessary’ ’’ part of the constitutional analysis is
an assessment of the addressee’s physical abilities and
aggressive tendencies to determine whether the
addressee is ‘‘ ‘likely to respond violently . . . .’ ’’
‘‘Unfortunate’’ is a vast understatement. The fighting
words doctrine invites—even requires—stereotyping
on the basis of age, gender, race, and whatever other
demographic characteristics the adjudicator explicitly
or implicitly relies on to decide whether a person is
likely to respond to offensive language with immediate
violence. In my view, a bright red light should flash
when our first amendment doctrine leads us to conclude, for example, that an outrageous slur directed at
a physically disabled elderly woman is constitutionally
protected but the identical words addressed to a physically fit man walking down the sidewalk will subject
the speaker to criminal prosecution. It is no wonder
that the fighting words doctrine is considered by many
critics to represent a ‘‘hopeless anachronism that mimics the macho code of barroom brawls.’’ K. Sullivan,
‘‘The First Amendment Wars,’’ New Republic, September 28, 1992, p. 40; id. (observing that fighting words
doctrine ‘‘give[s] more license to insult Mother Teresa
than Sean Penn just because she is not likely to throw
a punch’’); see A. Carr, ‘‘Anger, Gender, Race, and the
Limits of Free Speech Protection,’’ 31 Hastings Women’s L.J. 211, 227 (2020) (describing Chaplinsky as
reflecting ‘‘a gendered . . . perspective’’ enshrining ‘‘a
‘hypermasculine’ exemption from presumed ‘gentlemanly’ expectations of conduct among men’’); S. Gard,
‘‘Fighting Words as Free Speech,’’ 58 Wash. U. L.Q.
531, 536 (1980) (opining that fighting words doctrine
represents ‘‘a quaint remnant of an earlier morality that
has no place in a democratic society’’); K. Greenawalt,
‘‘Insults and Epithets: Are They Protected Speech?,’’ 42
Rutgers L. Rev. 287, 293 (1990) (‘‘Many speakers who
want to humiliate and wound would also welcome a
fight. But in many of the cruelest instances in which
abusive words are used, no fight is contemplated: white
adults shout epithets at black children walking to an
integrated school; strong men insult much smaller
women.’’); R. Kennedy, supra, 2001 U. Ill. L. Rev. 943
(fighting words doctrine ‘‘gives more leeway to insult
a nun than a prizefighter because she is less likely to
retaliate’’); W. Reilly, ‘‘Fighting the Fighting Words Standard: A Call for Its Destruction,’’ 52 Rutgers L. Rev.

App.38

947, 956 (2000) (observing that fighting words doctrine
permits ‘‘speech to be [regulated] . . . when directed
at someone who would react violently to a verbal
assault, but [prohibits regulation] . . . when directed
at someone with a more pacific bent’’).10
The doctrine in no way avoids this analytical abyss
by focusing its inquiry on the personal characteristics
of the ‘‘average’’ addressee rather than the actual listener. To the contrary, styling the test in faux objective
garb only makes things worse because there is no empirical basis for such an inquiry; no such average person
exists, no metric for assessment exists, and, to the best
of my knowledge, nothing that we would consider valid
social science is available to assist the decision maker.
The first amendment becomes a Rorschach blot onto
which the adjudicating authority (and, before it reaches
the adjudicator, the arresting officer and state prosecutor) projects his or her own stereotypes, preconceptions, biases and fantasies about race, ethnicity, sexual
orientation, gender, religion, and other ‘‘identity’’ characteristics of the addressee to decide whether a person
with those demographics probably would react with
immediate violence.11 This is especially the case when
it comes to the predominant twenty-first century brand
of insults, epithets, and slurs, which so often target the
group identity of the addressee. The fighting words
doctrine in its current form confers or withdraws first
amendment protection on the basis of nothing more
substantial than our own stereotypes and biases regarding those very demographic features. This is ‘‘I know
it when I see it’’ run amok.12
The sharp contrast between this court’s holdings in
Baccala and the present case demonstrate the point.
The majority does its best to distinguish Baccala on
some basis other than gender and race, but the stark
reality of differential treatment remains.13 In my view,
the various distinctions drawn between that case and
the present case, though unquestionably reflecting the
good-faith assessment of the subscribing justices, reinforce rather than remove valid concerns regarding the
arbitrary, subjective, and gendered nature of the fighting words doctrine. An observer would be excused for
thinking that these outcomes reflect, and may tend to
perpetuate, nothing more substantial than our deeply
ingrained stereotypes regarding the traditional gender
traits of the ‘‘average’’ woman, at least the ‘‘average’’
white woman. See footnote 11 of this opinion.14
The potential for discriminatory enforcement, or at the
very least the perception that a ‘‘realistic possibility that
official suppression of ideas is afoot,’’ is anathema to our
most fundamental first amendment values. R. A. V. v.
St. Paul, supra, 505 U.S. 390. In the hands of even the
most responsible police officers, prosecutors, judges and
juries, this legal standard is sure to produce incongruous and inexplicable results, even if all participants—

App.39

including the speaker and the addressee—share a relatively homogenous set of cultural norms and expectations. Under the auspices of less enlightened administrating authorities, the doctrine, in my view, ‘‘contains
an obvious invitation to discriminatory enforcement
. . . .’’ (Internal quotation marks omitted.) Houston v.
Hill, 482 U.S. 451, 465 n.15, 107 S. Ct. 2502, 96 L. Ed.
2d 398 (1987). The wide degree of subjectivity necessitated by the legal standard ‘‘furnishes a convenient tool
for ‘harsh and discriminatory enforcement by local
prosecuting officials, against particular groups deemed
to merit their displeasure’ ’’; Papachristou v. Jacksonville, 405 U.S. 156, 170, 92 S. Ct. 839, 31 L. Ed. 2d
110 (1972), quoting Thornhill v. Alabama, 310 U.S. 88,
97–98, 60 S. Ct. 736, 84 L. Ed. 1093 (1940); and ‘‘confers
on [the] police a virtually unrestrained power to arrest
and charge persons with a violation.’’ Lewis v. New
Orleans, 415 U.S. 130, 135, 94 S. Ct. 970, 39 L. Ed. 2d
214 (1974) (Powell, J., concurring in the result).
This brings me to the second fundamental problem
with the fighting words doctrine, which is that such an
intensely contextualized, fact specific, and inherently
subjective analysis in the area of free speech creates
major constitutional concerns under due process
vagueness principles. The underlying vice addressed by
the void for vagueness doctrine is basic to the rule
of law: ‘‘As generally stated, the [void for vagueness]
doctrine requires that a penal statute define the criminal
offense with sufficient definiteness that ordinary people
can understand what conduct is prohibited and in a
manner that does not encourage arbitrary and discriminatory enforcement. . . . Although the doctrine
focuses both on actual notice to citizens and arbitrary
enforcement, [the court has] recognized recently that
the more important aspect of the vagueness doctrine
‘is not actual notice, but the other principal element of
the doctrine—the requirement that a legislature establish minimal guidelines to govern law enforcement.’
. . . Where the legislature fails to provide such minimal
guidelines, a criminal statute may permit ‘a standardless
sweep [that] allows policemen, prosecutors, and juries
to pursue their personal predilections.’ ’’ (Citations
omitted.) Kolender v. Lawson, 461 U.S. 352, 357–58, 103
S. Ct. 1855, 75 L. Ed. 2d 903 (1983); see also Grayned
v. Rockford, 408 U.S. 104, 108–109, 92 S. Ct. 2294, 33 L.
Ed. 2d 222 (1972) (‘‘It is a basic principle of due process
that an enactment is void for vagueness if its prohibitions are not clearly defined. Vague laws offend several
important values. First, because we assume that man
is free to steer between lawful and unlawful conduct, we
insist that laws give the person of ordinary intelligence
a reasonable opportunity to know what is prohibited,
so that he may act accordingly. Vague laws may trap
the innocent by not providing fair warning. Second,
if arbitrary and discriminatory enforcement is to be
prevented, laws must provide explicit standards for

App.40

those who apply them. A vague law impermissibly delegates basic policy matters to policemen, judges, and
juries for resolution on an ad hoc and subjective basis,
with the attendant dangers of arbitrary and discriminatory application. Third, but related, [when] a vague statute abut[s] upon sensitive areas of basic [f]irst [a]mendment freedoms, it operates to inhibit the exercise of
[those] freedoms. Uncertain meanings inevitably lead
citizens to steer far wider of the unlawful zone . . .
than if the boundaries of the forbidden areas were
clearly marked.’’ (Footnotes omitted; internal quotation
marks omitted.)).
The defendant in the present case has not challenged
General Statutes § 53a-181 (a) (5) on vagueness grounds,
and, accordingly, it is not necessary or appropriate at
this time to decide whether the statute is saved by
this court’s narrowing construction, which limits its
coverage to fighting words as we have defined that term
in the prescribed analysis.15 In my opinion, our recent
decisions, including the decision issued today, have not
made that future task any easier.
To summarize, the facts of the present case obscure
the mischief inherent in the fighting words doctrine, as
applied by this court. I feel confident that every judge
in Connecticut would agree without reservation that
the particular words spoken by the defendant occupy
a singular category of offensive content as a result of
our country’s history. They are unique in their brutality.
I therefore agree fully with the view expressed by Judge
Devlin that ‘‘angrily calling an African-American man a
‘fucking [nigger]’ after taunting him with references to
a recent police shooting of a young African-American
man by a white police officer’’ must fall within the scope
of the fighting words doctrine. State v. Liebenguth, 181
Conn. App. 37, 68, 186 A.3d 39 (2018) (Devlin, J., concurring in part and dissenting in part). But, for the reasons
set forth in this concurring opinion, I also believe that
the fighting words doctrine does not provide a sensible
way to determine the circumstances under which the
government may prosecute the utterance of such vile
and repugnant speech.
III
This court’s own recent experience applying the fighting words doctrine, as well as the many similar cases
adjudicated by state courts around the country, powerfully illustrates why the United States Supreme Court
should consider fashioning a more defensible and
administrable first amendment framework for deciding
when the government may criminalize the kind of hate
speech uttered by the defendant in the present case.
To best serve its purpose, the reformulated doctrine
should directly confront the fundamental constitutional
issue underlying many of these cases, which is whether
and under what circumstances the first amendment
permits the government to protect its citizenry from

App.41

the kind of psychic and emotional harm that results
when a speaker with malicious intent subjects another
person to outrageously degrading slurs in a personal,
face-to-face encounter. I cannot predict the outcome
of such a doctrinal reexamination, but, in my view, it
would benefit us all if the Supreme Court undertakes
the challenge before too long. Our current doctrine,
operating by indirection and proxy through a hypothetical, stereotype-driven assessment of the likelihood that
the words will incite violence, is as unworthy as it
is unworkable, and every new case decided under its
purview creates additional cause for concern.
In the meantime, I agree with the majority that, under
our current first amendment case law, if anything is
fighting words, then the words spoken by this defendant
under these factual circumstances fit the bill. I concur
in the majority opinion for this reason.
1
As will become clear, my concerns share a great deal in common with
those expressed by Justice Kahn in her incisive concurring opinion.
2
Professor Randall L. Kennedy, the author of the acclaimed 2002 book
entitled ‘‘Nigger: The Strange Career of a Troublesome Word,’’ writes with
great learning, sensitivity and sophistication on the subject. He explains the
‘‘remarkably protean’’ nature of the word: ‘‘It can mean many things. . . .
A weapon of racist oppression, ‘nigger’ can also be a weapon of antiracist
resistance as in Dick Gregory’s autobiography entitled Nigger, or H. Rap
Brown’s polemic Die Nigger Die! An expression of deadening contempt, use
of the N-word can also be an assertion of enlivened wit as in Richard
Pryor’s trenchant album of stand up comedy That Nigger’s Crazy. A term
of belittlement, ‘nigger’ can also be a term of respect as in ‘James Brown
is sho nuff nigger.’ . . . A term of hostility, nigger can also be a term of
endearment as in ‘this is my main nigger’—i.e., my best friend. . . . It might
just be, as [the journalist Jarvis Deberry] writes, ‘the most versatile and most
widely applied intensifier in the English language.’ ’’ (Footnotes omitted.)
R. Kennedy, supra, 2001 U. Ill. L. Rev. 937; see also A. Perdue & G. Parks,
‘‘The Nth Decree: Examining Intraracial Use of the N-Word in Employment
Discrimination Cases,’’ 64 DePaul L. Rev. 65, 66 (2014) (‘‘[w]hile some members of the black community . . . publicly embrace [the] use of the N-word
by and among blacks as a term of endearment, others . . . still view it
exclusively as a tool of racial oppression’’). The indomitable Charles Barkley
has revealed the politically subversive undercurrent that accompanies some
uses of the word: ‘‘I use the N-word. I’m going to continue to use the Nword . . . . [W]hat I do with my black friends is not up to white America
. . . .’’ (Internal quotation marks omitted.) A. Perdue & G. Parks, supra,
65–66.
3
Questions arise about the continued vitality of the fighting words doctrine
because the United States Supreme Court has not upheld a single criminal
conviction under the doctrine since Chaplinsky was decided almost eighty
years ago. Note, ‘‘The Demise of the Chaplinsky Fighting Words Doctrine:
An Argument for Its Interment,’’ 106 Harv. L. Rev. 1129, 1129 (1993). There
is no doubt that the doctrine’s scope has been narrowed by a series of
decisions including, but not by any means limited to, Cohen v. California,
403 U.S. 15, 20, 91 S. Ct. 1780, 29 L. Ed. 2d 284 (1971) (limiting fighting words
to personally abusive epithets spoken in direct and personal confrontation),
Lewis v. New Orleans, 415 U.S. 130, 135, 94 S. Ct. 970, 39 L. Ed. 2d 214
(1974) (Powell, J., concurring in the result) (indicating that first amendment
protection is broader when addressee is police officer, who ‘‘may reasonably
be expected to exercise a higher degree of restraint than the average citizen,
and thus be less likely to respond belligerently to fighting words’’ (internal
quotation marks omitted)), and R. A. V. v. St. Paul, supra, 505 U.S. 386,
391 (recognizing that fighting words are not devoid of expressive value,
describing fighting words doctrine as regulation of ‘‘ ‘nonspeech’ element
of communication,’’ and holding that statute prohibiting particular fighting
words was unconstitutional because it discriminated on basis of viewpoint
of speaker). See, e.g., W. Nevin, ‘‘ ‘Fighting Slurs’: Contemporary Fighting
Words and the Question of Criminally Punishable Racial Epithets,’’ 14 First
Amendment L. Rev. 127, 133–38 (2015) (reviewing post-Chaplinsky cases

App.42

limiting fighting words doctrine); T. Place, ‘‘Offensive Speech and the Pennsylvania Disorderly Conduct Statute,’’ 12 Temp. Pol. & Civ. Rts. L. Rev. 47,
51–59 (2002) (same); R. Smolla, ‘‘Words ‘Which By Their Very Utterance
Inflict Injury’: The Evolving Treatment of Inherently Dangerous Speech in
Free Speech Law and Theory,’’ 36 Pepp. L. Rev. 317, 350 (2009) (noting that
‘‘the entire mainstream body of modern [f]irst [a]mendment law . . . has
dramatically tightened the rules of immediacy, intent, and likelihood of harm
required to justify restrictions on speech on the theory the speech will lead
to violence’’ and suggesting that ‘‘the ‘inflict[s] injury’ prong of Chaplinksy’’
is no longer operative and what remains is ‘‘that part of Chaplinksy linked
to genuine ‘fighting words’ and the maintenance of physical (as opposed to
moral) order’’). I nonetheless agree with the majority and Justice Kahn that
the fighting words exception to the first amendment has not been overruled
and remains binding on this court.
4
I do not break any new ground in pointing out these defects. See, e.g.,
B. Caine, ‘‘The Trouble With ‘Fighting Words’: Chaplinsky v. New Hampshire
Is a Threat to First Amendment Values and Should Be Overruled,’’ 88 Marq.
L. Rev. 441, 444–45 n.6 (2004) (‘‘While I agree with both scholars and others
that Chaplinsky ought to be overruled, I must note that the [United States]
Supreme Court has paid little attention to their plea. . . . [Chaplinsky] is
so deeply flawed that it cannot stand, and . . . [it] is an intolerable blot
on free speech jurisprudence.’’); S. Gard, ‘‘Fighting Words as Free Speech,’’
58 Wash. U. L.Q. 531, 536 (1980) (‘‘the fighting words doctrine is nothing
more than a quaint remnant of an earlier morality that has no place in a
democratic society dedicated to the principle of free expression’’); R. O’Neil,
‘‘Hate Speech, Fighting Words, and Beyond—Why American Law Is Unique,’’
76 Alb. L. Rev. 467, 471–72 (2012–2013) (‘‘[The] dismissive . . . view of
expression [in Chaplinsky] that was both unquestionably offensive and
provocative now seems not only archaic but also wholly illogical. . . . Seventy years later, Chaplinsky remains a persistent source of constitutional
confusion. It might have been mercifully overruled long since, but that never
happened.’’ (Footnotes omitted.)); W. Reilly, ‘‘Fighting the Fighting Words
Standard: A Call for Its Destruction,’’ 52 Rutgers L. Rev. 947, 948 (2000)
(‘‘The [fighting words doctrine] is discriminatory because its application
depends on assumptions about how likely a listener is to respond violently
to speech. This approach invites judges or juries to determine whether
speech is protected by the [f]irst [a]mendment based on their own prejudices
about the listener.’’); M. Mannheimer, Note, ‘‘The Fighting Words Doctrine,’’
93 Colum. L. Rev. 1527, 1558, 1568–71 (1993) (arguing for modification of
fighting words doctrine to add scienter requirement); Note, ‘‘The Demise
of the Chaplinsky Fighting Words Doctrine: An Argument for Its Interment,’’
106 Harv. L. Rev. 1129, 1141 (1993) (‘‘Overruling Chaplinsky would eliminate
a doctrine that accommodates the undesirable ‘male’ tendency to come to
blows. More [important], eliminating the ‘fighting words’ doctrine would
eradicate a tool that governmental officials may use and have used to harass
minority groups and to suppress dissident speech.’’).
5
See Cohen v. California, 403 U.S. 15, 25, 91 S. Ct. 1780, 29 L. Ed. 2d 284
(1971) (recognizing that, under fighting words doctrine, ‘‘it is . . . often
true that one man’s vulgarity is another’s lyric’’).
6
G. Carlin, Class Clown (Little David Records 1972).
7
Chaplinsky defined fighting words as ‘‘those which by their very utterance inflict injury or tend to incite an immediate breach of the peace.’’
Chaplinsky v. New Hampshire, supra, 315 U.S. 572. The two parts of this
definition have come to be known as the ‘‘inflicts injury’’ prong and the
‘‘breach of peace’’ or ‘‘incitement’’ prong. It is debatable whether the ‘‘inflicts
injury’’ prong was ever anything more than dictum. See Note, ‘‘The Demise
of the Chaplinsky Fighting Words Doctrine: An Argument for Its Interment,’’
106 Harv. L. Rev. 1129, 1129 (1993) (noting that ‘‘the prong of Chaplinsky
that exempted words ‘which by their very utterance inflict injury’—dictum
in that opinion—has never been used by the [c]ourt to uphold a speaker’s
conviction’’). In any event, it is generally acknowledged that the ‘‘inflicts
injury’’ prong no longer serves to justify the fighting words exception. See,
e.g., Purtell v. Mason, 527 F.3d 615, 624 (7th Cir.) (‘‘[a]lthough the ‘inflictinjury’ alternative in Chaplinsky’s definition of fighting words has never
been expressly overruled, the [United States] Supreme Court has never held
that the government may, consistent with the [f]irst [a]mendment, regulate
or punish speech that causes emotional injury but does not have a tendency
to provoke an immediate breach of the peace’’ (emphasis omitted)), cert.
denied, 555 U.S. 945, 129 S. Ct. 411, 172 L. Ed. 2d 288 (2008); Boyle v.
Evanchick, United States District Court, Docket No. 19-3270 (GAM) (E.D.

App.43

Pa. March 19, 2020) (noting ‘‘[t]he [United States] Supreme Court’s retreat
from the broad standard announced in Chaplinsky’’ and abandonment of
the ‘‘inflicts injury’’ prong); UWM Post, Inc. v. Board of Regents, 774 F.
Supp. 1163, 1170 (E.D. Wis. 1991) (‘‘[s]ince Chaplinsky, the [United States]
Supreme Court has . . . limited the fighting words definition so that it now
. . . includes [only the ‘incitement’ prong]’’); People in the interest of R.C.,
411 P.3d 1105, 1108 (Colo. App. 2016) (‘‘soon after Chaplinsky, the [United
States] Supreme Court either dropped the ‘inflict[s] injury’ category of fighting words altogether or recited the full definition of fighting words without
further reference to any distinction between merely hurtful speech and
speech that tends to provoke an immediate breach of the peace’’), cert.
denied, Colorado Supreme Court, Docket No. 16SC987 (November 20, 2017);
State v. Drahota, 280 Neb. 627, 634, 788 N.W.2d 796 (2010) (‘‘the [United
States] Supreme Court has largely abandoned Chaplinsky’s ‘inflict[s] injury’
standard’’); E. Chemerinsky, Constitutional Law (5th Ed. 2017) § 9 (C) (2)
(a), p. 1387 (‘‘the [c]ourt has narrowed the scope of the fighting words
doctrine by ruling that it applies only to speech directed at another person
that is likely to produce a violent response’’); M. Rutzick, ‘‘Offensive Language and the Evolution of First Amendment Protection,’’ 9 Harv. C.R.-C.L.
L. Rev. 1, 22–27 (1974) (tracing United States Supreme Court’s rejection of
‘‘inflicts injury’’ prong in decades since Chaplinsky); M. Mannheimer, Note,
‘‘The Fighting Words Doctrine,’’ 93 Colum. L. Rev. 1527, 1538–49 (1993)
(tracing United States Supreme Court’s rejection of ‘‘inflicts injury’’ prong
in decades since Chaplinsky); Note, supra, 106 Harv. L. Rev. 1137 (‘‘this
prong almost certainly has been de facto overruled’’).
8
First amendment jurisprudence traditionally recognizes that the government may not censor speech merely because the content or message is
insulting or offensive due to its emotional impact on the audience. See, e.g.,
Texas v. Johnson, 491 U.S. 397, 414, 109 S. Ct. 2533, 105 L. Ed. 2d 342 (1989)
(‘‘[i]f there is a bedrock principle underlying the [f]irst [a]mendment, it is
that the government may not prohibit the expression of an idea simply
because society finds the idea itself offensive or disagreeable’’); Cohen v.
California, 403 U.S. 15, 25, 91 S. Ct. 1780, 29 L. Ed. 2d 284 (1971) (‘‘Surely
the [s]tate has no right to cleanse public debate to the point where it is
grammatically palatable to the most squeamish among us. . . . [I]t is . . .
often true that one man’s vulgarity is another’s lyric.’’); cf. R. Kennedy,
supra, 2001 U. Ill. L. Rev. 943 (‘‘[t]he [fighting words] doctrine is in tension
with the dominant (and good) rule in criminal law that prevents ‘mere words
standing alone . . . no matter how insulting, offensive, and abusive’ from
constituting the predicate for a provocation excuse’’), quoting United States
v. Alexander, 471 F.2d 923, 941 n.48 (D.C. Cir.), cert. denied sub nom.
Murdock v. United States, 409 U.S. 1044, 93 S. Ct. 541, 34 L. Ed. 2d 494 (1972).
9
The incitement analysis has its origins in cases in which a speaker faces
criminal prosecution or civil liability for advocating unlawful conduct. See,
e.g., Brandenburg v. Ohio, 395 U.S. 444, 444–45, 89 S. Ct. 1827, 23 L. Ed.
2d 430 (1969) (speech allegedly advocating hate group to engage in racial
violence); Schenck v. United States, 249 U.S. 47, 48–50, 39 S. Ct. 247, 63 L.
Ed. 470 (1919) (speech advocating reader to resist military conscription);
cf. NAACP v. Claiborne Hardware Co., 458 U.S. 886, 927, 102 S. Ct. 3409,
73 L. Ed. 2d 1215 (1982) (applying Brandenburg test to speech allegedly
inciting group to cause property damage). Under the Brandenburg ‘‘incitement’’ analysis, speech loses its constitutional protection only if it is (1)
‘‘directed to inciting or producing imminent lawless action,’’ and (2) ‘‘likely
to incite or produce such action.’’ Brandenburg v. Ohio, supra, 447. The
fighting words doctrine, unlike the Brandenburg incitement analysis, contains no intent requirement. See C. Calvert, ‘‘First Amendment Envelope
Pushers: Revisiting the Incitement-to-Violence Test with Messrs. Brandenburg, Trump, & Spencer,’’ 51 Conn. L. Rev. 117, 131–32 (2019) (‘‘[i]n contrast
to Brandenburg, the [c]ourt’s test for another unprotected category of
speech related to violence—fighting words—lacks an intent element’’); M.
Mannheimer, Note, ‘‘The Fighting Words Doctrine,’’ 93 Colum. L. Rev. 1527,
1557 (1993) (observing that fighting words doctrine does not contain ‘‘a true
incitement requirement because [it] fail[s] to require a critical component
of the Brandenburg incitement standard—the intent of the speaker to
cause violence’’).
10
Professor Kathleen Sullivan is correct to label the doctrine gendered
and anachronistic, although its historical roots trace back to the nineteenth
century gentlemanly ritual of the duel rather than the timeless workingclass custom of barroom brawling. Ironically, as Professor Jeffrey Rosen
has observed, ‘‘[t]he [social] foundation of the [fighting words] doctrine had

App.44

collapsed long before the [United States] Supreme Court enshrined it as
marginal constitutional law in 1942 [in Chaplinksy].’’ J. Rosen, ‘‘Fighting
Words,’’ Legal Affairs, May/June, 2002, p. 18. ‘‘Legal bans on fighting words,’’
explains Rosen, ‘‘grew out of the [nineteenth century] efforts to discourage
the practice of dueling, and they evolved from a [class-based] culture of
honor and hierarchy’’ that we would no longer recognize in contemporary
America. Id., p. 16. The concept of fighting words emanates from a ‘‘highly
ritualized code of honor [that] led American gentlemen in the [nineteenth]
century to fight duels, to prove their social status and worthiness for leadership. . . . [D]ueling depended on a strong consensus about the social pecking order. If you were insulted by a social equal, you redeemed your honor
by challenging him to a duel. If you wanted to insult a social inferior, you
displayed your contempt by bludgeoning him with a cane. In a culture based
on honor, there was broad agreement about what kinds of insults could be
avenged only by demanding satisfaction in a duel.’’ Id. States attempted—
apparently with little success—to put an end to this cultural artifact by
enacting laws criminalizing the utterance of words considered so insulting
as to necessitate a violent response. Id.; see also K. Greenberg, Honor and
Slavery (Princeton University Press 1996) c. 1, pp. 14–15 (discussing history
of antidueling laws); J. Freeman, Affairs of Honor (Yale University Press
2001) c. 4, pp. 159–198 (discussing social meaning and national importance
of dueling in America during early nineteenth century). Professor Freeman’s
discussion in particular demonstrates that participation in these ‘‘affairs of
honor’’ was not considered optional. See J. Freeman, supra, pp. 159–164
(discussing Alexander Hamilton’s tormented desire to avoid proceeding with
duel demanded by Aaron Burr and Hamilton’s reluctant conclusion that duel
was impossible to avoid). ‘‘The laws of honor,’’ writes Professor Freeman,
‘‘indicated when insults could not be ignored . . . .’’ Id., p. 171. Our country’s
dominant social code no longer compels us to defend our honor with violence; to the contrary, it is considered honorable to respond to insults by
walking away, as the parking enforcement officer, Michael McCargo, did in
the present case.
11
There is a substantial body of social science literature on implicit bias,
which is generally defined as subconscious ‘‘stereotypes and prejudices that
can negatively and nonconsciously affect behavior . . . .’’ L. Richardson,
‘‘Arrest Efficiency and the Fourth Amendment,’’ 95 Minn. L. Rev. 2035, 2039
(2011). One such implicit bias ‘‘consists of the cultural stereotype of blacks,
especially young men, as violent, hostile, aggressive, and dangerous.’’ Id.;
see also A. Rutbeck-Goldman & L. Richardson, ‘‘Race and Objective Reasonableness in Use of Force Cases: An Introduction to Some Relevant Social
Science,’’ 8 Ala. C.R. & C.L. L. Rev. 145, 149 (2017) (‘‘[s]ocial science research
over the last few decades suggests that we unconsciously associate [b]lack
men with danger, criminality, and violence’’). Implicit biases ‘‘linking [b]lacks
with aggression have been shown to cause people to judge the behavior of
a [b]lack person as more aggressive than the identical behavior of a [w]hite
person,’’ leading to higher rates of police violence and incarceration. K.
Spencer et al., ‘‘Implicit Bias and Policing,’’ 10 Soc. & Personality Psychol.
Compass 50, 54 (2016); see also L. Richardson, supra, 2039 (‘‘As a result of
implicit biases, an officer might evaluate behaviors engaged in by individuals
who appear black as suspicious even as identical behavior by those who
appear white would go unnoticed. In other words, even when officers are
not intentionally engaged in conscious racial profiling, implicit biases can
lead to a lower threshold for finding identical behavior suspicious when
engaged in by blacks than by whites.’’). Implicit biases are not limited to
race; they also perpetuate subconscious gender stereotypes. Many individuals view women as ‘‘meek or submissive’’; J. Cuevas & T. Jacobi, ‘‘The
Hidden Psychology of Constitutional Criminal Procedure,’’ 37 Cardozo L.
Rev. 2161, 2181 (2016); and, thus, not prone to engage in violent behavior.
This is not true, however, for women of color. Black women are often
viewed as ‘‘hot-tempered, combative, and uncooperative,’’ leading to higher
rates of police violence and incarceration. F. Freeman, Note, ‘‘Do I Look
Like I Have an Attitude? How Stereotypes of Black Women on Television
Adversely Impact Black Female Defendants Through the Implicit Bias of
Jurors,’’ 11 Drexel L. Rev. 651, 655 (2019); see also N. Amuchie, ‘‘ ‘The
Forgotten Victims’ How Racialized Gender Stereotypes Lead to Police Violence Against Black Women and Girls: Incorporating an Analysis of Police
Violence into Feminist Jurisprudence and Community Activism,’’ 14 Seattle
J. Soc. Just. 617, 646 (2016) (‘‘[b]lack women and girls are viewed as [nonfeminine] or [unladylike], which leads to high levels of violence against them
and excessive policing’’). America, of course, has no monopoly on group

App.45

stereotypes of this nature. See, e.g., P. Lerner et al., ‘‘Introduction: German
Jews, Gender, and History,’’ in Jewish Masculinities (B. Baader et al. eds.,
2012) p. 1 (‘‘[t]he idea that Jewish men differ from non-Jewish men by
being delicate, meek, or effeminate in body and character runs deep in
European history’’).
12
See Jacobellis v. Ohio, 378 U.S. 184, 197, 84 S. Ct. 1676, 12 L. Ed.
2d 793 (1964) (Stewart, J., concurring) (confessing his inability to define
pornography in words but explaining that ‘‘I know it when I see it’’). Justice
Potter Stewart’s candor is admirable and refreshing, but it is also troubling
to those who believe that ‘‘the exercise of judicial power is not legitimate
if it is based . . . on subjective will rather than objective analysis, on emotion [or instinct] rather than reasoned reflection.’’ P. Gewirtz, Essay, ‘‘On ‘I
Know It When I See It,’ ’’ 105 Yale L.J. 1023, 1025 (1996). Some commentators,
including Professor Gewirtz, consider such criticism unfair on the ground
that it ‘‘mischaracterizes and understates the role that emotion and nonrational elements properly play in forming judicial [decision-making and opinion writing].’’ Id. I am not unsympathetic to Professor Gewirtz’ general point,
but my heart and mind are in agreement that ‘‘I know it when I see it’’
jurisprudence has no place in first amendment law.
13
To cite one illustrative example of what I consider the unconvincing
arguments offered by the majority to explain why the offensive speech was
protected in Baccala but not here, the majority compares the nature of the
addressee’s job as an assistant store manager in Baccala to that of Michael
McCargo, the parking enforcement officer in the present case, and opines
that the store employee’s supervisory status made her more likely to ‘‘[model]
appropriate, responsive behavior, aimed at de-escalating the situation
. . . .’’ (Internal quotation marks omitted.), quoting State v. Baccala, supra,
326 Conn. 253. Unlike the majority, I would place far greater weight on the
fact that the addressee in this case was a government employee, not a private
individual, as in Baccala. This factor, though not dispositive, traditionally
and commonsensically weighs strongly in favor of according the speaker
greater first amendment protection. See, e.g., Houston v. Hill, 482 U.S. 451,
462, 107 S. Ct. 2502, 96 L. Ed. 2d 398 (1987) (‘‘a properly trained officer may
reasonably be expected to exercise a higher degree of restraint than the
average citizen, and thus be less likely to respond belligerently to fighting
words’’ (internal quotation marks omitted)), quoting Lewis v. New Orleans,
415 U.S. 130, 135, 94 S. Ct. 970, 39 L. Ed. 2d 214 (1974) (Powell, J., concurring
in the result); United States v. Poocha, 259 F.3d 1077, 1081 (9th Cir. 2001)
(‘‘the area of speech unprotected as fighting words is at its narrowest, if
indeed it exists at all, with respect to criminal prosecution for speech
directed at public officials’’); Abudiab v. San Francisco, 833 F. Supp. 2d
1168, 1175 (N.D. Cal. 2011) (parking control officer, ‘‘as a public official
whose duties often incite the vitriol of the public, and who consequently is
authorized to use force against members of the public (deployment of pepper
spray in self-defense) . . . should be held to a higher standard of conduct
in terms of his reaction to mere criticisms, profane and otherwise, of the
manner in which he conducts his official duties’’), aff’d sub nom. Abudiab
v. Georgopoulos, 586 Fed. Appx. 685 (9th Cir. 2013); In re Nickolas S., 226
Ariz. 182, 188, 245 P.3d 446 (2011) (‘‘a student’s profane and insulting outburst’’ was not fighting words because ‘‘Arizona teachers exemplify a higher
level of professionalism’’); State v. Baccala, supra, 326 Conn. 244 (‘‘a majority
of courts, including ours, hold police officers to a higher standard than
ordinary citizens when determining the likelihood of a violent response by
the addressee’’). To be sure, McCargo was not a police officer, but he was
employed as an agent of the government to walk the streets imposing
monetary fines on members of the public for municipal parking violations.
Parking enforcement officers, as the bearers of bad news, are in a very
unpopular line of work and can expect to be subjected to varying levels of
verbal abuse. See, e.g., T. Barrett, The Dangerous Life of a Parking Cop,
The Tyee (April 2, 2004), available at https://thetyee.ca/Life/2004/04/02/
The_Dangerous_Life_of_a_Parking_Cop/ (last visited August 26, 2020)
(reviewing film about ‘‘the life of a parking enforcement officer,’’ who
explained that ‘‘physical assaults are rare, but verbal abuse is something
that happens almost every day’’); J. McKinley, ‘‘San Franciscans Hurl Their
Rage at Parking Patrol,’’ N.Y. Times, January 6, 2007, p. A12 (abuse on
parking control officers is ‘‘common, often frightening and, occasionally,
humiliating’’).
14
The particular facts of the present case, and our consensus regarding
the correct result here, ought not obscure the reality that demographic
stereotypes and implicit biases relating to race will continue to plague this

App.46

doctrine. Conscious or unconscious racial stereotypes help to explain why
some speech is deemed likely to incite violence, whereas other speech is
not. See, e.g., A. Carr, supra, 31 Hastings Women’s L.J. 229–30 (‘‘For nonwhite
Americans, racist stereotypes and diverging governmental and cultural
norms about expressing public anger compound the complexities of [speech
regulation]. Moreover, the state’s responses to different individuals and
groups’ public displays of anger—as in protest actions—vary on the basis of
race. For example, the recent cases of mass protests in Ferguson [Missouri,
in 2014] and the Women’s Marches (2017 onward) displayed enormous
disparities: police responses to the [majority black] protesters in Ferguson
were militarized and violent compared to the anodyne permissiveness of
authorities toward the visibly white Women’s March organizers and attendees. . . . Those [state individual] contexts include, among others, racist
patterns of policing and incarceration, as well as profoundly asymmetric
rates of arrest and prosecution. These considerations form a daunting backdrop for nonwhite (and non-male) listeners . . . in ways not contemplated
by the [c]ourt in Chaplinsky and later cases. Black and brown Americans
have myriad deeply rooted claims for condemning state authorities, for
angrily castigating them in terms far harsher than Chaplinsky’s censured
utterance, but they also face far greater chances of harm if they choose to
do so. Censure limits free speech rights; speaking out against racist systems
often deprives speakers of color their very lives.’’ (Footnotes omitted.)).
15
I doubt that anyone would dispute that the actual statutory language
promulgated by our legislature, which criminalizes the use of ‘‘abusive or
obscene language’’ in a public place ‘‘with intent to cause inconvenience,
annoyance or alarm’’; General Statutes § 53a-181 (a) (5); plainly cannot pass
muster under the void for vagueness doctrine without the aid of a workable
narrowing construction. See Gooding v. Wilson, 405 U.S. 518, 523, 92 S. Ct.
1103, 31 L. Ed. 2d 408 (1972) (striking down Georgia’s breach of peace
statute in absence of such limiting construction while observing that ‘‘[its]
decisions since Chaplinsky have continued to recognize state power constitutionally to punish ‘fighting’ words under carefully drawn statutes not also
susceptible of application to protected expression’’); see also Plummer v.
Columbus, 414 U.S. 2, 2–3, 94 S. Ct. 17, 38 L. Ed. 2d 3 (1973) (striking down
municipal ordinance providing that ‘‘[n]o person shall abuse another by
using menacing, insulting, slanderous, or profane language’’ (internal quotation marks omitted)).

App.47

APPENDIX B
Opinion of the Connecticut Appellate Court, State v.
Liegenbuth, AC 39506 (Apr. 17, 2018).

App.48

***********************************************
The “officially released” date that appears near the beginning of each opinion is the date the opinion will be published in the Connecticut Law Journal or the date it was
released as a slip opinion. The operative date for the beginning of all time periods for filing postopinion motions
and petitions for certification is the “officially released”
date appearing in the opinion.
All opinions are subject to modification and technical
correction prior to official publication in the Connecticut
Reports and Connecticut Appellate Reports. In the event of
discrepancies between the advance release version of an
opinion and the latest version appearing in the Connecticut
Law Journal and subsequently in the Connecticut Reports
or Connecticut Appellate Reports, the latest version is to
be considered authoritative.
The syllabus and procedural history accompanying the
opinion as it appears in the Connecticut Law Journal and
bound volumes of official reports are copyrighted by the
Secretary of the State, State of Connecticut, and may not
be reproduced and distributed without the express written
permission of the Commission on Official Legal Publications, Judicial Branch, State of Connecticut.
***********************************************

App.49

STATE OF CONNECTICUT v. DAVID
G. LIEBENGUTH
(AC 39506)
DiPentima, C. J., and Sheldon and Devlin, Js.
Syllabus
Convicted, following a trial to the court, of the crimes of breach of the
peace in the second degree and tampering with a witness, the defendant
appealed to this court. His conviction stemmed from an incident in
which he allegedly confronted and made racial slurs toward a parking
authority officer, M, over a parking ticket, and subsequently e-mailed
M’s supervisor suggesting why M should not appear in court to testify.
On appeal, the defendant claimed that the evidence adduced at trial
was insufficient to support his conviction of either charge. Held:
1. The trial court incorrectly concluded that the evidence adduced at trial
was sufficient to support the defendant’s conviction of breach of the
peace in the second degree: that court’s finding that the defendant twice
directed a racial slur at M in a belligerent tone, with an aggressive stance
and while walking toward him was clearly erroneous, as the defendant
was inside his car on both occasions when he made the racial slur, and
although the defendant used extremely vulgar and offensive language
that was meant to personally demean M, under the circumstances in
which he uttered that language it was not likely to tend to provoke a
reasonable person in M’s position immediately to retaliate with violence,
and, therefore, because M was unlikely to have retaliated with immediate
violence to the conduct for which the defendant was charged, the defendant’s words were not fighting words on which he might appropriately
be convicted of breach of the peace; accordingly, his conviction of
breach of the peace in the second degree could not stand.
2. The evidence adduced at trial was sufficient to support the defendant’s
conviction of tampering with a witness in violation of statute (§ 53a-151),
there having been ample evidence demonstrating that the defendant
intended to induce M to absent himself from a court proceeding; the state
presented evidence that the defendant sent an e-mail to M’s supervisor
implying that he would press felony charges against M and cause M to
lose his job if he appeared in court to testify, but that he would let the
matter drop if M did not appear in court to testify, and the defendant’s
claim that the e-mail did not constitute a true threat against M was
unavailing, as the state did not claim that the defendant tampered with
a witness by threatening him and, thus, was not required to prove, nor
was the trial court required to find, that the defendant threatened M in
order to establish that he sought to induce him not to testify for purposes
of § 53a-151, under which a defendant need not contact a witness directly
to be convicted.
(One judge concurring in part and dissenting in part)
Argued November 15, 2017—officially released April 17, 2018
Procedural History

Substitute information charging the defendant with
the crimes of breach of the peace in the second degree
and tampering with a witness, brought to the Superior
Court in the judicial district of Norwalk, geographical
area number twenty, and tried to the court, Hernandez,
J.; judgment of guilty, from which the defendant
appealed to this court. Reversed in part; judgment
directed.
Joseph M. Merly, with whom, on the brief, was John
R. Williams, for the appellant (defendant).
Timothy F. Costello, assistant state’s attorney, with

App.50

whom, on the brief, were Richard J. Colangelo, Jr.,
state’s attorney, and Nadia C. Prinz, deputy assistant
state’s attorney, for the appellee (state).

App.51

Opinion

SHELDON, J. The defendant, David G. Liebenguth,
was convicted, following a bench trial, of breach of
the peace in the second degree in violation of General
Statutes § 53a-181 (a) (5) and tampering with a witness
in violation of General Statutes § 53a-151. The charges
were filed in connection with an angry confrontation
between the defendant and a parking authority officer
who had issued him a parking ticket, and a subsequent
e-mail from the defendant to the officer’s supervisor,
suggesting why the officer should not appear in court
to testify against him. The defendant now appeals,
claiming that the evidence adduced at trial was insufficient to support his conviction of either charge. We
affirm in part and reverse in part the judgment of the
trial court.
The following evidence was presented at trial.
Michael McCargo, a parking enforcement officer for the
town of New Canaan, testified that he was patrolling
the Morris Court parking lot on the morning of August
28, 2014, when he noticed that the defendant’s vehicle
was parked in a metered space for which no payment
had been made. He first issued a ticket for the defendant’s vehicle, then walked to another vehicle to issue
a ticket, while his vehicle remained idling behind the
defendant’s vehicle. As McCargo was returning to his
vehicle, he was approached by the defendant, whom he
had never before seen or interacted with. The defendant
said to McCargo, ‘‘not only did you give me a ticket,
but you blocked me in.’’ Initially believing that the
defendant was calm, McCargo jokingly responded that
he didn’t want the defendant getting away. When the
defendant then attempted to explain why he had parked
in the lot, McCargo responded that his vehicle was in
a metered space for which payment was required, not
in one of the lot’s free parking spaces. McCargo testified
that the defendant’s demeanor then ‘‘escalated,’’ with
the defendant saying that the parking authority was
‘‘unfucking believable’’ and telling McCargo that he had
given him a parking ticket ‘‘because my car is white.
. . . [N]o, [you gave] me a ticket because I’m white.’’
As the defendant, who is white, spoke with McCargo,
who is African-American, he ‘‘flared’’ his hands and
added special emphasis to the profanity he uttered.
Even so, according to McCargo, the defendant always
remained a ‘‘respectable’’ distance from him. Finally,
as the defendant was walking away from McCargo
toward his own vehicle, he spoke the words, ‘‘remember Ferguson.’’
After both men had returned to and reentered their
vehicles, McCargo, whose window was rolled down,
testified that he thought he heard the defendant say the
words, ‘‘fucking niggers.’’ This caused him to believe
that the defendant’s prior comment about Ferguson had
been made in reference to the then recent shooting of

App.52

an African-American man by a white police officer in
Ferguson, Missouri. He thus believed that the defendant
meant to imply that what had happened in Ferguson
‘‘was going to happen’’ to him. McCargo also believed
that by uttering the racial slur and making reference to
Ferguson, the defendant was trying to rile him up and
escalate the situation. That, however, did not happen,
for although McCargo found the remark offensive, and
he had never before been the target of such language
while performing his duties, he remained calm at all
times and simply drove away to resume his patrol.
Shortly thereafter, however, as he was driving away,
the defendant drove past him. As he did so, McCargo
testified that the defendant turned toward him, looked
directly at him with an angry expression on his face,
and repeated the slur, ‘‘fucking niggers.’’ McCargo noted
in his testimony that the defendant said the slur louder
the second time than he had the first time.
After the defendant drove out of the parking lot,
McCargo called his supervisor, who instructed him to
report the incident to the New Canaan police. In his
report, McCargo noted that there might have been a
witness to the interaction, whom he described as a
young white female. The defendant later was arrested
in connection with the incident on the charge of breach
of the peace in the second degree.
Next to testify was Mallory Frangione, the young
white female witness to the incident whom McCargo
had mentioned in his report. She testified that she
parked in the Morris Court parking lot around 9:45 a.m.
on the morning of August 28, 2014, and as soon as she
opened her car door, she heard yelling. She then saw
two men, McCargo and the defendant, who were standing outside of their vehicles about seventy feet away
from her. She observed that the defendant was moving
his hands all around, that his body movements were
aggressive and irate, and that his voice was loud. She
heard him say something about Ferguson, then say that
something was ‘‘f’ing unbelievable.’’ She further testified that she saw the defendant take steps toward
McCargo while acting in an aggressive manner. She
described McCargo, by contrast, as calm, noting that he
never raised his voice, moved his arms or gesticulated
in any way. McCargo ultimately backed away from the
defendant and got into his vehicle. The defendant, she
recalled, drove in two circles around the parking lot
before leaving. Frangione testified that witnessing the
interaction made her feel nervous and upset.
Karen Miller, McCargo’s supervisor at the New
Canaan Parking Department, also testified. Miller
received an e-mail from the defendant at work on March
6, 2015. The e-mail, which was admitted into evidence,
read as follows: ‘‘Please be advised that on March 12th
at 2 p.m.1 in a court of law in Norwalk, CT., I will prove
beyond any reasonable doubt that your meter maid did

App.53

in fact commit multiple crimes against me, including
at least one FELONY, as well as breaking CT vehicular/
traffic laws in the operation of his vehicle and New
Canaan town ordinances while on the job PRIOR to
any false allegations of breach of peace in the second
degree on my part. Additionally, as such, I also intend
to subsequently invoke and pursue New Canaan town
ordinances that would effectively require this meter
maid to resign, or be terminated, from his position.
‘‘Although it is not my desire to escalate this situation
to the point a mans job, career, and lively hood is on
the line, I must do what is necessary to prove my innocence. And in that course it will be proven your mater
maid did in fact commit multiple crimes, including at
least one FELONY, and infractions against me on that
day BEFORE I was forced to react to his criminal
actions against me.
‘‘Of course if this is what you want to see happen I
look forward to you and your meter maids presence in
court next week. It goes without mention that if your
meter maid does not show up in court this case will
be over and everyone can go peacefully on their own
way, no harm, no foul, no fallout.
‘‘It’s your choice now to make whatever recommendation you wish to your selectman. It will be MY
CHOICE to defend myself from these false charges next
week in court by proving (at minimum showing probable cause for an arrest!) your meter maid a criminal at
best.a FELON at worst. Perhaps the judge will remand
him to custody right then and there from his witness
chair?
‘‘Obviously not if he is not there.’’2 (Footnote added.)
Miller understood the e-mail to mean that McCargo
should absent himself from court proceedings.
McCargo also read the e-mail, the sending of which he
described as a ‘‘scare tactic.’’ He believed the defendant
sent the e-mail in order to persuade him not to go to
court and testify, and that if he did appear in court,
the defendant would pursue negative repercussions as
outlined in his e-mail.
After the state rested, the defendant moved for a
judgment of acquittal on both counts, which the court
denied. The defendant elected not to testify. The court,
ruling from the bench, found the defendant guilty on
both counts. It reasoned as follows: ‘‘In finding that
the defendant’s language and behavior is not protected
speech, the court considers the words themselves, in
other words, the content of the speech, the context
in which it was uttered, and all of the circumstances
surrounding the defendant’s speech and behavior.
‘‘The court finds that the defendant’s language, fucking niggers directed at Mr. McCargo twice . . . is not
protected speech. . . . The defendant’s use of the particular racial epithet is in the American lexicon, there

App.54

is no other racial epithet more loaded with racial animus, no other epithet more degrading, demeaning or
dehumanizing. It is a word which is probably the most
[vile] racial epithet a non-African-American can direct
towards an African-American. [The defendant] is white.
Mr. McCargo is African-American.
‘‘In light of this country’s long and shameful history
of state sanctioned slavery, Jim Crow segregation, state
sanctioned racial terrorism, financial and housing discrimination, the word simply has . . . no understanding under these circumstances other than as a word
directed to incite violence. The word itself is a word
likely to provoke a violent response.
‘‘The defendant is not however being prosecuted
solely for use of this word. All language must be considered in light of its context.
‘‘The court finds that considering . . . the content
of the defendant’s speech taken in context and in light
of his belligerent tone, his aggressive stance, the fact
that he was walking towards Mr. McCargo and moving
his hands in an aggressive manner, there’s no other
interpretation other than these are fighting words. And
he uttered the phrase not once but twice. It was
directed—the court finds that it was directed directly
at Mr. McCargo. There were no other African-Americans
present . . . in the parking lot when it happened, and
indeed Mr. McCargo’s unease and apprehension at hearing those words was corroborated by Mallory Frangione
who . . . said that she felt disconcerted by the defendant’s tone of voice and his aggressive stance and
actions.
‘‘With respect to count two, the court has . . . similarly considered the words that were used in the e-mail,
the subject e-mail. It finds that there is nothing in the
evidence which suggests that in sending the e-mail, the
defendant intended to comment or bring attention to
a matter of public concern in a public forum.3 . . .
‘‘[T]he content . . . of the communication . . .
itself was of an entirely personal nature. [The defendant] stated that he was willing to withdraw his claim
which he now suggests was a matter of public interest,
in exchange for a purely personal benefit, namely the
withdrawal of criminal charges which were then pending against [him].
‘‘So for those reasons, the court rejects the defendant’s claim that either or both of these statements were
protected first amendment speech.’’ (Footnote added.)
The court later sentenced the defendant as follows: on
the charge of breach of the peace in the second degree,
to a term of six months, execution suspended, followed
by two years of probation on several special conditions,
plus a $1000 fine; and on the charge of tampering with a
witness, a consecutive term of four years incarceration,
execution suspended, followed by four years of proba-

App.55

tion on the same special conditions and a $3000 fine.
This appeal followed.
We begin with our standard of review. ‘‘It is well
settled that a defendant who asserts an insufficiency
of the evidence claim bears an arduous burden. . . .
[F]or the purposes of sufficiency review . . . we
review the sufficiency of the evidence as the case was
tried . . . . [A] claim of insufficiency of the evidence
must be tested by reviewing no less than, and no more
than, the evidence introduced at trial. . . . In
reviewing a sufficiency of the evidence claim, we apply
a two part test. First, we construe the evidence in the
light most favorable to sustaining the verdict. Second,
we determine whether upon the facts so construed and
the inferences reasonably drawn therefrom the [fact
finder] reasonably could have concluded that the cumulative force of the evidence established guilt beyond a
reasonable doubt . . . . This court cannot substitute
its own judgment for that of the [fact finder] if there
is sufficient evidence to support the [fact finder’s] verdict. . . .
‘‘[T]he [fact finder] must find every element proven
beyond a reasonable doubt in order to find the defendant guilty of the charged offense, [but] each of the
basic and inferred facts underlying those conclusions
need not be proved beyond a reasonable doubt. . . .
If it is reasonable and logical for the [fact finder] to
conclude that a basic fact or an inferred fact is true,
the [fact finder] is permitted to consider the fact proven
and may consider it in combination with other proven
facts in determining whether the cumulative effect of
all the evidence proves the defendant guilty of all the
elements of the crime charged beyond a reasonable
doubt. . . . Moreover, it does not diminish the probative force of the evidence that it consists, in whole or
in part, of evidence that is circumstantial rather than
direct. . . . It is not one fact . . . but the cumulative
impact of a multitude of facts which establishes guilt
in a case involving substantial circumstantial evidence.
. . . In evaluating evidence, the [fact finder] is not
required to accept as dispositive those inferences that
are consistent with the defendant’s innocence. . . .
The [fact finder] may draw whatever inferences from
the evidence or facts established by the evidence [that]
it deems to be reasonable and logical. . . .
‘‘[O]n appeal, we do not ask whether there is a reasonable view of the evidence that would support a reasonable hypothesis of innocence. We ask, instead, whether
there is a reasonable view of the evidence that supports
the [fact finder’s] verdict of guilty. . . . [T]he trier of
fact may credit part of a witness’ testimony and reject
other parts. . . . [W]e must defer to the [fact finder’s]
assessment of the credibility of the witnesses based on
its firsthand observation of their conduct, demeanor
and attitude . . . .’’ (Citation omitted; internal quota-

App.56

tion marks omitted.) State v. Raynor, 175 Conn. App.
409, 424–26, 167 A.3d 1076, cert. granted, 327 Conn.
969, 173 A.3d 952 (2017).
I
The defendant first claims that the evidence was
insufficient to support his conviction for breach of the
peace in the second degree because the words he
uttered to McCargo were protected speech under the
first amendment to the United States constitution4 and
thus did not violate § 53a-181 (a) (5).
‘‘Ordinarily, a jury or trial court’s findings of fact are
not to be overturned on appeal unless they are clearly
erroneous. . . . Thus, we [generally] review the findings of fact . . . for clear error.
‘‘In certain first amendment contexts, however,
appellate courts are bound to apply a de novo standard
of review. . . . [In such cases], the inquiry into the
protected status of . . . speech is one of law, not fact.
. . . As such, an appellate court is compelled to examine for [itself] the . . . statements [at] issue and the
circumstances under which they [were] made to [determine] whether . . . they . . . are of a character [that]
the principles of the [f]irst [a]mendment . . . protect.
. . . [I]n cases raising [f]irst [a]mendment issues [the
United States Supreme Court has] repeatedly held that
an appellate court has an obligation to make an independent examination of the whole record in order to make
sure that the judgment does not constitute a forbidden
intrusion [into] the field of free expression. . . . This
rule of independent review was forged in recognition
that a [reviewing] [c]ourt’s duty is not limited to the
elaboration of constitutional principles . . . . [Rather,
an appellate court] must also in proper cases review
the evidence to make certain that those principles have
been constitutionally applied. . . . Therefore, even
though, ordinarily . . . [f]indings of fact . . . shall not
be set aside unless clearly erroneous, [appellate courts]
are obliged to [perform] a fresh examination of crucial
facts under the rule of independent review.’’ (Citation
omitted; internal quotation marks omitted.) State v.
Krijger, 313 Conn. 434, 446–47, 97 A.3d 946 (2014). The
court in Krijger also noted, however, that although an
appellate court ‘‘review[s] de novo the trier of fact’s
ultimate determination that the statements at issue constituted a [breach of the peace], [the court] accept[s]
all subsidiary credibility determinations and findings
that are not clearly erroneous.’’ Id., 447.
The defendant argues that the trial court’s findings
that he directed the phrase ‘‘fucking niggers’’ at
McCargo ‘‘in context and in light of his belligerent tone,
his aggressive stance, [and] the fact that he was walking
toward Mr. McCargo and moving his hands in an aggressive manner’’ have no support in the evidence and,
in fact, are contradicted by the evidence. Pursuant to

App.57

Krijger, we must examine the statements at issue to
determine whether they are of such a character as to
be protected under the first amendment. See State v.
Krijger, supra, 313 Conn. 446. Upon conducting such
an examination, we agree with the defendant that the
court’s findings are clearly erroneous.
‘‘The starting point for our analysis is an examination
of the statements at issue.’’ Id., 452. The defendant does
not contest the finding that he twice used the words
‘‘fucking niggers,’’ or the finding that he directed those
words at McCargo. Frangione, however, who was the
only person to testify that the defendant ever walked
toward McCargo while speaking to him, did not testify
that she ever heard the defendant say the words ‘‘fucking niggers.’’ McCargo, who did testify to hearing the
defendant say those words, testified that the defendant
‘‘[stood] his ground’’ during the incident, staying at a
‘‘respectable’’ distance from him throughout. According
to McCargo, the defendant was inside his car on both
occasions when he said the words ‘‘fucking niggers.’’
The trial court’s finding that the defendant twice
directed the phrase ‘‘fucking niggers’’ at McCargo, in a
belligerent tone, with an aggressive stance and while
walking toward him, is therefore clearly erroneous.
We continue our analysis to determine whether the
defendant’s speech, as supported by the evidence
adduced at trial, could lawfully constitute a breach of
the peace under the fighting words exception to the first
amendment. Our Supreme Court recently discussed the
type of speech that constitutes ‘‘fighting words,’’ and
thus is not protected by the first amendment, in State
v. Baccala, 326 Conn. 232, 163 A.3d 1, cert. denied,
U.S. , 138 S. Ct. 510, 199 L. Ed. 2d 408 (2017). In
Baccala, the defendant was convicted of breach of the
peace in the second degree after a customer service
dispute in a supermarket. Id., 233–34. The defendant
customer called the supermarket to request that the
store keep the customer service desk open until she
arrived so that she could pick up a Western Union
money transfer. Id., 235. The manager who answered
her telephone call informed her that the desk was
already closed and the services she sought were currently unavailable. Id. ‘‘The defendant became belligerent, responded that she ‘really didn’t give a shit,’ and
called [the manager] ‘[p]retty much every swear word
you can think of’ before the call was terminated.’’ Id.
A few minutes after the telephone call, the defendant
arrived at the store, went inside, and proceeded directly
to the closed customer service desk, where she
attempted to fill out a money transfer form. Id. After
the manager with whom she had spoken on the telephone told her once again that the customer service
desk was closed for the day, the defendant ‘‘proceeded
to loudly call [the manager] a ‘fat ugly bitch’ and a ‘cunt’
and said ‘fuck you, you’re not a manager,’ all while
gesticulating with her cane.’’ (Footnote omitted.) Id.,

App.58

236. The manager remained calm during this outburst
and responded to the defendant by telling her to have
a good night, at which point the defendant left the
store. Id. On appeal, our Supreme Court held that the
foregoing evidence was insufficient to support the
defendant’s breach of peace conviction under settled
first amendment principles; id., 237; ‘‘[b]ecause the
words spoken by the defendant were not likely to provoke a violent response under the circumstances in
which they were uttered.’’ Id., 234.
‘‘[A] proper contextual analysis,’’ the court in Baccala
wrote, ‘‘requires consideration of the actual circumstances, as perceived by both a reasonable speaker and
addressee, to determine whether there was a likelihood
of violent retaliation. This necessarily includes the manner in which the words were uttered, by whom and to
whom the words were uttered, and any other attendant
circumstances that were objectively apparent and bear
on the question of whether a violent response was
likely.’’5 Id., 250.
‘‘[I]t is precisely this consideration of the specific
context in which the words were uttered and the likelihood of actual violence, not an undifferentiated fear
or apprehension of disturbance, that is required by the
United States Supreme Court’s decisions following
Chaplinsky [v. New Hampshire, 315 U.S. 568, 62 S. Ct.
766, 86 L. Ed. 1031 (1942)]. . . . Because the fighting
words exception is concerned only with preventing the
likelihood of actual violence, an approach ignoring the
circumstances of the addressee is antithetical and simply unworkable.’’ (Citations omitted; emphasis in original; internal quotation marks omitted.) Id., 248. ‘‘[T]he
fighting words exception is not concerned with creating
symmetrical free speech rights by way of establishing
a uniform set of words that are constitutionally proscribed. . . . Rather, because the fighting words
exception is intended only to prevent the likelihood
of an actual violent response, it is an unfortunate but
necessary consequence that we are required to differentiate between addressees who are more or less likely
to respond violently and speakers who are more or less
likely to elicit such a response.’’ (Citation omitted.)
Id., 249.
The court applied a two part test ‘‘[i]n considering
the defendant’s challenge to the sufficiency of the evidence to support her conviction of breach of the peace
in the second degree in accordance with her first
amendment rights . . . . First, as reflected in the previous recitation of facts, we construe the evidence in
the light most favorable to sustaining the verdict. . . .
Second, we determine whether the trier of fact could
have concluded from those facts and reasonable inferences drawn therefrom that the cumulative force of the
evidence established guilt beyond a reasonable doubt.
. . . Accordingly, to establish the defendant’s violation

App.59

of § 53a-181 (a) (5) . . . in light of its constitutional
gloss, the state was required to prove beyond a reasonable doubt that the defendant’s words were likely to
provoke an imminent violent response from an average
store manager in [that woman’s] position.’’ (Citations
omitted.) Id., 250–51.
The court continued: ‘‘At the outset of [our] examination, we must acknowledge that the words and phrases
used by the defendant—‘fat ugly bitch,’ ‘cunt,’ and ‘fuck
you, you’re not a manager’—were extremely offensive
and meant to personally demean [the manager]. The
defendant invoked one or more of the most vulgar terms
known in our lexicon to refer to [the manager’s] gender.
Nevertheless, ‘[t]he question in this case is not whether
the defendant’s words were reprehensible, which they
clearly were; or cruel, which they just as assuredly
were; or whether they were calculated to cause psychic
harm, which they unquestionably were; but whether
they were criminal.’ . . . Uttering a cruel or offensive
word is not a crime unless it would tend to provoke a
reasonable person in the addressee’s position to immediately retaliate with violence under the circumstances.’’ (Citation omitted; emphasis in original.) Id.,
251–52.
In determining that the defendant’s conduct in Baccala did not support a conviction for breach of the
peace because the state did not prove beyond a reasonable doubt that the manager was likely to retaliate with
violence, the court considered several factors. Id., 252.
First, the court discussed the telephone call that preceded the in-person interaction: Because the defendant
had already been belligerent to and directed swear
words at the manager over the telephone, the manager
‘‘reasonably would have been aware of the possibility
that a similar barrage of insults . . . would be directed
at her.’’ Id. Second, the court noted that store managers
are routinely confronted by frustrated customers, who
often express themselves in angry terms, and are
expected in such situations to model appropriate behavior and deescalate the situation. Id., 253. Additionally,
the manager had a significant degree of control over
the premises where the confrontation took place and
could have resorted to lawful self-help tools if the defendant became abusive, rather than responding with violence herself. Id. The court concluded that ‘‘[g]iven the
totality of the circumstances in the present case . . .
it would be unlikely for an on duty store manager in
[her] position to respond in kind to the defendant’s
angry diatribe with similar expletives.’’ Id. Finally, the
court noted that the manager did not respond with
profanity or violence, observing that ‘‘[a]lthough the
reaction of the addressee is not dispositive . . . it is
probative of the likelihood of a violent reaction.’’ (Citation omitted.) Id., 254.
In this case, as in Baccala, the defendant used

App.60

extremely vulgar and offensive language, meant to personally demean McCargo.6 Under the circumstances in
which he uttered this language, however, it was not
likely to tend to provoke a reasonable person in
McCargo’s position immediately to retaliate with violence. Although the evidence unequivocally supports a
finding that the defendant at one point walked toward
McCargo while yelling and moving his hands, there is
no evidence that the defendant simultaneously used the
racial slurs. The evidence unequivocally shows, instead,
that the defendant was in his car both times that he
directed the racial slurs toward McCargo.7 McCargo did
testify that the defendant’s use of the slurs shocked
and appalled him, and that he found the remarks offensive. He also testified, however, that he remained calm
throughout the encounter and felt no need to raise his
voice to the defendant. A reasonable person acting in
the capacity of a parking official would be aware that
some level of frustration might be expressed by some
members of the public who are unhappy with receiving
tickets and would therefore not be likely to retaliate
with immediate violence during such an interaction.
In reviewing the entire context of the interaction, we
therefore find that because McCargo was unlikely to
retaliate with immediate violence to the conduct for
which the defendant was charged, the defendant’s
words were not ‘‘fighting words,’’ upon which he might
appropriately be convicted of breach of the peace. The
defendant’s conviction of breach of the peace in the
second degree must therefore be reversed.
II
The defendant next claims that the evidence was
insufficient to prove him guilty of tampering with a
witness in violation of § 53a-151. That statute provides:
‘‘A person is guilty of tampering with a witness if,
believing that an official proceeding is pending or about
to be instituted, he induces or attempts to induce a
witness to testify falsely, withhold testimony, elude
legal process summoning him to testify or absent himself from any official proceeding.’’ General Statutes
§ 53a-151. ‘‘[T]he witness tampering statute has two
requirements: (1) the defendant believes that an official
proceeding is pending or about to be instituted; and (2)
the defendant induces or attempts to induce a witness to
engage in the proscribed conduct.’’ (Internal quotation
marks omitted.) State v. O’Donnell, 174 Conn. App. 675,
690, 166 A.3d 646, cert. denied, 327 Conn. 956, 172 A.3d
205 (2017).
The defendant, however, has construed the state’s
charge as one of tampering with a witness by way of
threatening conduct. He argues that his e-mail to
McCargo’s supervisor did not constitute a ‘‘true threat,’’
and thus is entitled to first amendment protection, citing
State v. Sabato, 321 Conn. 729, 742, 138 A.3d 895 (2016),
for the proposition that ‘‘a defendant whose alleged

App.61

threats form the basis of a prosecution under any provision of our Penal Code . . . could be convicted as
charged only if his statements . . . constituted a true
threat, that is, a threat that would be viewed by a reasonable person as one that would be understood by the
person against whom it was directed as a serious
expression of an intent to harm or assault, and not
as mere puffery, bluster, jest or hyperbole.’’ (Internal
quotation marks omitted.) Because the state did not
claim that the defendant tampered with a witness by
threatening him, his argument that his words did not
constitute a ‘‘true threat’’ is unavailing.
‘‘The language of § 53a-151 plainly warns potential
perpetrators that the statute applies to any conduct that
is intended to prompt a witness . . . to refrain from
testifying in an official proceeding that the perpetrator
believes to be pending or imminent. The legislature’s
unqualified use of the word ‘induce’ clearly informs
persons of ordinary intelligence that any conduct,
whether it be physical or verbal, can potentially give
rise to criminal liability. Although the statute does
not expressly mandate that the perpetrator intend to
cause the witness to . . . withhold his testimony, the
implicit requirement is apparent when the statute is
read as a whole. . . . The legislature’s choice of the
verb ‘induce’ connotes a volitional component of the
crime of tampering that would have been absent had
it employed a more neutral verb such as ‘cause.’ Furthermore, the statute’s application to unsuccessful, as
well as successful, attempts to induce a witness to render false testimony [or refrain from testifying] supports
our conclusion that the statute focuses on the mental
state of the perpetrator to distinguish culpable conduct
from innocent conduct.’’ (Citations omitted; emphasis
added.) State v. Cavallo, 200 Conn. 664, 668–69, 513
A.2d 646 (1986). ‘‘Although Cavallo discusses § 53a-151
in the context of inducing someone to testify falsely or
to refrain from testifying, we conclude that its holding
that the language of § 53a-151 plainly warns potential
perpetrators applies equally to situations in which a
defendant attempts to induce someone to absent himself or herself from a proceeding.’’ State v. BennettGibson, 84 Conn. App. 48, 57–58 n.9, 851 A.2d 1214,
cert. denied, 271 Conn. 916, 859 A.2d 570 (2004). ‘‘[A]
defendant is guilty of tampering with a witness only if
he intends that his conduct directly cause a particular
witness to testify falsely or to refrain from testifying at
all.’’ State v. Cavallo, supra, 672.
In State v. Bennett-Gibson, this court stated that ‘‘[t]o
prove inducement or an attempt thereof, the evidence
before the jury must be sufficient to conclude that the
defendant’s conduct was intended to prompt [the complainant] to absent herself from the proceeding. . . .
Intent may be, and usually is, inferred from the defendant’s verbal or physical conduct. . . . Intent may also
be inferred from the surrounding circumstances. . . .

App.62

The use of inferences based on circumstantial evidence
is necessary because direct evidence of the accused’s
state of mind is rarely available. . . . Furthermore, it
is a permissible, albeit not a necessary or mandatory,
inference that a defendant intended the natural consequences of his voluntary conduct.’’ (Citation omitted;
emphasis omitted; footnote omitted; internal quotation
marks omitted.) State v. Bennett-Gibson, supra, 84
Conn. App. 53.
A defendant need not contact a witness directly to
be convicted under § 53a-151. In State v. Carolina, 143
Conn. App. 438, 69 A.3d 341, cert. denied, 310 Conn.
904, 75 A.3d 31 (2013), this court upheld the conviction
of a defendant who had written a letter to his cousin
in which he asked his cousin to pass along scripted
false testimony to a potential witness against him. Id.,
440–42. The letter was intercepted by a correction officer and did not reach the cousin; therefore, the witness
did not become aware of the defendant’s scripted testimony. Id., 444. The defendant claimed that ‘‘[t]he letter
was an attempt to induce [his] cousin to induce [the
witness] to testify falsely,’’ but since the letter never
reached the witness, the witness ‘‘was never aware of
the defendant’s attempts to induce her to testify falsely.’’
(Internal quotation marks omitted.) Id., 442. This court
upheld the defendant’s conviction under § 53a-151, noting that ‘‘[t]he purpose of the statute would be thwarted
if a defendant could avoid liability by inducing false
testimony indirectly through an intermediary instead
of communicating directly with the witness himself.’’
Id., 445.
In this case, the trial court had ample evidence that
the defendant intended to induce McCargo to absent
himself from the court proceeding. The state presented
evidence that the defendant sent an e-mail to McCargo’s
supervisor implying that he would press felony charges
against McCargo and cause McCargo to lose his job if
he appeared in court to testify, but that he would let
the matter drop if McCargo did not appear in court to
testify. The defendant’s claim that his e-mail did not
constitute a ‘‘true threat’’ against McCargo is unavailing.
The state was not required to prove, nor was the trial
court required to find, that the defendant threatened
McCargo in order to establish that he sought to induce
him not to testify. The language of the defendant’s e-mail
clearly indicates that the defendant intended to induce
McCargo not to appear in court, insofar as it stated: ‘‘It
goes without mention that if your meter maid does not
show up in court this case will be over and everyone
can go peacefully on their own way, no harm, no foul,
no fallout’’ and ‘‘[p]erhaps the judge will remand him
to custody right then and there from his witness chair?
Obviously not if he is not there.’’ That is all that is
required for a conviction on this charge. We therefore
affirm the defendant’s conviction of tampering with
a witness.

App.63

The judgment is reversed only as to the defendant’s
conviction of breach of the peace in the second degree
and the case is remanded with direction to render a
judgment of acquittal on that charge and to resentence
the defendant on the charge of tampering with a witness; the judgment is affirmed in all other respects.
In this opinion, DiPENTIMA, C. J., concurred.
1

The court took judicial notice that there was a scheduled court date
related to the breach of peace charge on March 12, 2015.
2
The spelling and capitalization in the e-mail as quoted are per the original.
3
On appeal, the defendant did not pursue his claim that his e-mail was
protected speech as a matter of public concern.
4
The defendant also claims his conduct was protected by article first,
§§ 3, 4 and 14, of the Connecticut constitution. Because this claim is not
independently briefed, we do not reach the defendant’s claim pursuant to
the Connecticut constitution. See, e.g., State v. Outlaw, 216 Conn. 492, 501
n.6, 582 A.2d 751 (1990).
5
Our Supreme Court also noted that ‘‘[a] proper examination of the context
also considers those personal attributes of the speaker and the addressee
that are reasonably apparent because they are necessarily a part of the
objective situation in which the speech was made. . . . Courts have, for
example, considered the age, gender, race, and status of the speaker.’’ (Citations omitted.) Id., 241–42.
6
Our dissenting colleague notes, as did the trial court, that the word
‘‘nigger’’ is vile and offensive, and that its use perpetuates historically discriminatory attitudes about race that regrettably persist in modern society.
We agree entirely with those observations. We reiterate, however, that,
under our law, it is the context in which such slurs are uttered that determines whether or not their utterance is so likely to provoke a violent
response as to constitute fighting words, for which criminal sanctions may
constitutionally be imposed.
7
The dissent also points to two cases cited in Baccala, in which it contends
that the word ‘‘nigger’’ was held to constitute a constitutionally unprotected
fighting word. The Baccala court cited the two cases, In re Spivey, 345 N.C.
404, 480 S.E.2d 693 (1997), and In re John M., 201 Ariz. 424, 36 P.3d 772
(App. 2001), for the related propositions that a proper contextual evaluation
of speech as alleged fighting words involves consideration of: the personal
characteristics of the speaker and the person to whom his words are
addressed, such as their ages, genders, races and respective statuses; State
v. Baccala, supra, 326 Conn. 241–43; and the likelihood that the average
listener with those personal characteristics would respond with violence to
such speech if it were addressed to him in the circumstances of the case
before the court. Id., 243. We respectfully submit that in those two cases,
it was the particular circumstances in which the word ‘‘nigger’’ was uttered
that made its use unprotected by the first amendment, and that nothing in
those cases suggests that that word is always an unprotected fighting word.

App.64

***********************************************
The “officially released” date that appears near the beginning of each opinion is the date the opinion will be published in the Connecticut Law Journal or the date it was
released as a slip opinion. The operative date for the beginning of all time periods for filing postopinion motions
and petitions for certification is the “officially released”
date appearing in the opinion.
All opinions are subject to modification and technical
correction prior to official publication in the Connecticut
Reports and Connecticut Appellate Reports. In the event of
discrepancies between the advance release version of an
opinion and the latest version appearing in the Connecticut
Law Journal and subsequently in the Connecticut Reports
or Connecticut Appellate Reports, the latest version is to
be considered authoritative.
The syllabus and procedural history accompanying the
opinion as it appears in the Connecticut Law Journal and
bound volumes of official reports are copyrighted by the
Secretary of the State, State of Connecticut, and may not
be reproduced and distributed without the express written
permission of the Commission on Official Legal Publications, Judicial Branch, State of Connecticut.
***********************************************

App.65

STATE v. LIEBENGUTH—DISSENT

DEVLIN, J., concurring in part and dissenting in part.
I agree with the majority that the evidence was sufficient to support the trial court’s verdict of guilty on
the charge of tampering with a witness in violation of
General Statutes § 53a-151. I write separately because
I also believe that the evidence was sufficient to support
the guilty verdict on the charge of breach of the peace
in the second degree in violation of General Statutes
§ 53a-181 (a) (5). Contrary to the majority, I do not
believe that State v. Baccala, 326 Conn. 232, 163 A.3d
1, cert. denied,
U.S. , 138 S. Ct. 510, 199 L. Ed. 2d
408 (2017) requires a different result.
As related to the breach of the peace charge, the trial
court reasonably could have found the following facts.
On August 28, 2014, between 9 a.m. and 9:30 a.m., New
Canaan Parking Enforcement Officer Michael McCargo
was patrolling a municipal parking lot in the town’s
commercial district. Although there were a few parking
spaces that permitted up to fifteen minutes of free parking, the majority of parking spaces required that the
motorist pay a fee to park. McCargo observed the defendant’s car in space number two, which required payment of a parking fee that had not been paid by the
defendant. Accordingly, McCargo stopped his parking
enforcement vehicle in the parking lot’s travel lane near
the defendant’s car and issued a parking ticket.
McCargo noted a second unpaid vehicle parked in a
space near the center of the parking lot. He left his
vehicle, still parked near the defendant’s car, and
walked to the car at the center of the lot. McCargo was
in the process of issuing a ticket for the second vehicle
when the driver of that vehicle showed up. The driver
said that she did not know that she had to pay to park
there. The driver just left it at that.
McCargo then walked back to his parking enforcement vehicle. The defendant approached him stating:
‘‘[N]ot only did you give me a ticket, but you blocked
me in.’’ McCargo responded jokingly: ‘‘[T]hat’s because
I didn’t want you to get away.’’ The defendant explained
why he was parked in the lot and McCargo stated why
he had issued the ticket. McCargo noted the free fifteen
minute parking spaces nearby. Unhappy with the explanation, the defendant said that the New Canaan Parking
Department was ‘‘unfucking believable.’’ As the defendant said this, his demeanor changed as he emphasized
the profanities. At one point, McCargo advised the
defendant to watch what he said, to which the defendant responded: ‘‘It’s freedom of speech.’’
The encounter then escalated and the defendant said:
‘‘I know why you gave me a ticket. . . . [Y]ou gave me
a ticket because my car is white.’’ McCargo looked at
the defendant. The defendant continued: ‘‘[N]o, you’re

App.66

giving me a ticket because I’m white.’’1 The defendant
then turned and walked back to his parked vehicle. As
he walked, the defendant said ‘‘remember Ferguson.’’
McCargo understood ‘‘Ferguson’’ to reference the
then recent incident in Ferguson, Missouri in which a
police officer had shot a black male. McCargo believed
the events in Ferguson had been quite recent—within a
few days of the encounter with the defendant. McCargo
considered the defendant’s comment to be a threat and
believed that the defendant was implying that what
happened at Ferguson was going to happen to him. He
felt that the defendant was trying to ‘‘rile [him] up’’ and
‘‘just take it to a whole other level.’’
Mallory Frangione, who was in the parking lot, witnessed the confrontation between the defendant and
McCargo. She saw the defendant yelling and motioning
with his hands back and forth and up and down in an
aggressive manner and taking steps toward McCargo.
She also overheard the defendant reference Ferguson
and say ‘‘f’ing unbelievable.’’ Even though she was
approximately seventy feet away, witnessing the incident made her feel nervous and upset.
After the ‘‘Ferguson’’ comment, the defendant and
McCargo returned to their respective vehicles. As they
were getting inside their vehicles, McCargo testified
that he heard the defendant say ‘‘fucking niggers.’’
McCargo pulled away and the defendant backed out of
his space and drove behind McCargo. The defendant
drove his vehicle around McCargo’s vehicle and, as he
passed, he looked at McCargo and again said: ‘‘[F]ucking niggers.’’ This was said louder than the first time.
While saying this, the defendant had an angry expression on his face and spoke in a loud and angry tone.
McCargo was shocked and appalled by the remarks.
When McCargo advised his supervisor of the incident,
he was clearly upset. His supervisor encouraged him
to make a report to the New Canaan Police Department,
and he did so.
In considering the defendant’s challenge to his conviction for breach of the peace in the second degree, we
apply a two-part test. ‘‘First, we construe the evidence
in the light most favorable to sustaining the verdict.
Second, we determine whether upon the facts so construed and the inferences reasonably drawn therefrom
the [finder of fact] reasonably could have concluded
that the cumulative force of the evidence established
guilt beyond a reasonable doubt.’’ (Internal quotation
marks omitted.) State v. Cook, 287 Conn. 237, 254, 947
A.2d 307, cert. denied, 555 U.S. 970, 129 S. Ct. 464, 172
L. Ed. 2d 328 (2008). More specifically, as to the present
case, to establish the defendant’s violation of § 53a181 (a) (5), the state was required to prove beyond
a reasonable doubt that the defendant’s words were
‘‘fighting words’’ that were likely to ‘‘induce immediate

App.67

violence by the person or persons to whom [they were]
uttered because of their raw effect.’’ State v. Caracoglia,
78 Conn. App. 98, 110, 826 A.2d 192, cert. denied, 266
Conn. 903, 832 A.2d 65 (2003).
‘‘In cases where [the line between speech unconditionally guaranteed and speech which may be legitimately regulated] must be drawn, the rule is that we
examine for ourselves the statements in issue and the
circumstances under which they were made to see if
they are consistent with the first amendment. . . . We
undertake an independent examination of the record
as a whole to ensure that the judgment does not constitute a forbidden intrusion on the field of free expression.’’ (Citations omitted; internal quotation marks
omitted.) State v. Baccala, supra, 326 Conn. 251.
The majority is correct that, in announcing its verdict,
the trial court conflated the physically aggressive
aspects of the encounter with the racial epithets that
came later. The record is clear that the two aspects of
the incident were separate. Notwithstanding the trial
court’s remarks, in my view, the evidence supports the
defendant’s conviction of breach of the peace in the
second degree.
The first amendment constitutional right to freedom
of speech, while generally prohibiting the government
from proscribing speech based on disapproval of its
content, does not protect ‘‘fighting words’’ that tend to
incite a breach of the peace. (Internal quotation marks
omitted.) Chaplinsky v. New Hampshire, 315 U.S. 568,
571–72, 62 S. Ct. 766, 86 L. Ed. 1031 (1942). ‘‘[F]ighting
words’’ are ‘‘personally abusive epithets which, when
addressed to the ordinary citizen, are, as a matter of
common knowledge, inherently likely to provoke violent reaction.’’ (Internal quotation marks omitted.)
Cohen v. California, 403 U.S. 15, 20, 91 S. Ct. 1780, 29
L. Ed. 2d 284 (1971).
In State v. Baccala, supra, 326 Conn. 232, our
Supreme Court considered whether the angry outbursts
of a dissatisfied customer directed at a manager of a
supermarket were sufficient to support her conviction
for breach of the peace in the second degree. This was
no ordinary dispute. The defendant became very angry
when she became aware that she would not be able to
pick up a Western Union money transfer. Id., 235–36.
The defendant, in a loud voice, called the store manager
a ‘‘fat ugly bitch’’ and a ‘‘cunt’’ and said ‘‘fuck you, you’re
not a manager’’ all the while gesticulating with a cane.
(Internal quotation marks omitted.) Id., 236.
In concluding that the defendant’s words were protected by the first amendment, our Supreme Court
noted several concepts pertinent to the fighting words
exception. First, the court noted that there are no per
se fighting words but, rather, words may or may not
be fighting words depending upon the circumstances

App.68

of their use. Id., 238–39. Second, ‘‘[a] proper contextual
analysis requires consideration of the actual circumstances as perceived by a reasonable speaker and
addressee to determine whether there was a likelihood
of violent retaliation. . . . A proper examination of
context also considers those personal attributes of the
speaker and the addressee that are reasonably apparent
because they are necessarily a part of the objective
situation in which the speech was made.’’ (Citations
omitted.) Id., 240–41. Finally, the court’s task is to
‘‘determine on a case-by-case basis all of the circumstances relevant to whether a reasonable person in the
position of the actual addressee would have been likely
to respond with violence.’’ Id., 245. It is the ‘‘tendency
or likelihood of the words to provoke violent reaction
that is the touchstone of the Chaplinsky test . . . .’’
(Internal quotation marks omitted.) Id., 247.
Given the Baccala decision, one may fairly pose the
following question: If angrily calling a store manager a
‘‘fat ugly bitch’’ and a ‘‘cunt’’ is not breach of the peace,
how can the words used in the present case be considered fighting words that would support a conviction
for breach of the peace? This is essentially the position
of the majority. The majority rests its reversal of the
breach of the peace in the second degree conviction
on two grounds. First, that, under the circumstances
in which the defendant used the language, it was not
likely to provoke a reasonable person in McCargo’s
position to immediately retaliate with violence. Second,
that a parking official should expect frustration from
persons who receive parking tickets and therefore not
be likely to retaliate with immediate violence.
As to the second ground, there is nothing in the record
to support the assertion that a ‘‘parking official’’ is less
likely to respond to a provocative racial insult than
any other person. In McCargo’s experience, there were
people who were not happy about receiving a parking
ticket. He testified, however, that no one had ever used
the level of language employed by the defendant.
Turning to the first ground, that the language was
not likely to provoke a reasonable person to retaliate
with violence, I believe that this does not account for
the truly inflammatory and provocative language used.
The word ‘‘nigger’’ is commonly used and understood as
an offensive and inflammatory racial slur. See MerriamWebster’s Collegiate Dictionary (11th Ed. 2011) One
commentator describes its effect this way: ‘‘American
society remains deeply afflicted by racism. Long before
slavery became the mainstay of the plantation society
of the antebellum South, Anglo-Saxon attitudes of racial
superiority left their stamp on the developing culture
of colonial America. Today, over a century after the
abolition of slavery, many citizens suffer from discriminatory attitudes and practices, infecting our economic
system, our cultural and political institutions, and the

App.69

daily interactions of individuals. The idea that color is
a badge of inferiority and a justification for the denial
of opportunity and equal treatment is deeply ingrained.
The racial insult remains one of the most pervasive
channels through which discriminatory attitudes are
imparted. Such language injures the dignity and selfregard of the person to whom it is addressed, communicating the message that distinctions of race are distinctions of merit, dignity, status, and personhood. Not only
does the listener learn and internalize the messages
contained in racial insults, these messages color our
society’s institutions and are transmitted to succeeding
generations.’’ (Emphasis added; footnotes omitted.) R.
Delgado, ‘‘Words that Wound: A Tort Action for Racial
Insults, Epithets, and Name-Calling,’’ 17 Harv. Civil
Rights-Civil Liberties L. Rev. 133, 135–136 (1982).
In Baccala, the court recognized the particularly heinous nature of racial epithets in citing to In re Spivey,
345 N.C. 404, 480 S.E.2d 693 (1997) and In re John M.,
201 Ariz. 424, 36 P.3d 772 (App. 2001). State v. Baccala,
supra, 326 Conn. 242–43. In re Spivey, supra, 408, concerned a removal proceeding for a district attorney who
repeatedly called a black bar patron ‘‘nigger.’’ In denying
the respondent’s claim that his use of the word was
protected by the first amendment, the Supreme Court
of North Carolina took judicial notice of the following:
‘‘No fact is more generally known than that a white
man who calls a black man ‘a nigger’ within his hearing
will hurt and anger the black man and often provoke
him to confront the white man and retaliate.’’ Id., 414.
The court went on to describe the respondent’s
repeated references to the bar patron as a ‘‘nigger’’ as
a ‘‘classic case of the use of fighting words tending to
incite an immediate breach of the peace . . . .’’ (Internal quotation marks omitted.) Id., 415.
In In re John M., supra, 201 Ariz. 424, a juvenile
leaned out a car window and yelled ‘‘fuck you, you god
damn nigger’’ to an African-American woman walking
to a bus stop. Id., 425. In concluding that these words
were not protected speech, the Court of Appeals of
Arizona observed: ‘‘We agree with the [s]tate that few
words convey such an inflammatory message of racial
hatred and bigotry as the term nigger. According to
Webster’s New World Dictionary, the term is generally
regarded as virtually taboo because of the legacy of
racial hatred that underlies the history of its use among
whites, and its continuing use among a minority as
a viciously hostile epithet.’’ (Internal quotation marks
omitted.) Id., 428.
In re Spivey and In re John M. are by no means the
only cases that have categorized the word ‘‘nigger’’ as
a fighting word. See, e.g., In re H.K., 778 N.W.2d 764,
767, 770 (N.D. 2010) (following a teenage girl of AfricanAmerican ancestry into a bathroom during a dance,
yelling at her and calling her a ‘‘nigger’’ and then ‘‘telling

App.70

[her she doesn’t] own this town, that they own this
town, and they don’t want niggers in their town and
that [she needed] to watch out’’ were fighting words
likely to incite a breach of the peace); Lee v. Superior
Court, 9 Cal. App. 4th 510, 518, 11 Cal. Rptr. 2d 763
(1992) (denying request of African-American applicant
to legally change his name to ‘‘Misteri Nigger’’ and stating: ‘‘We opine that men and women . . . of common
intelligence would understand . . . [the word, nigger]
likely to cause an average addressee to fight’’ [internal
quotation marks omitted]).
The present case falls within the ‘‘fighting words’’
exception to first amendment protection for several
reasons. First, the words used by the defendant were
personally provocative. This was not a situation like
Cohen v. California, supra, 403 U.S. 20, in which the
defendant’s jacket bore the words ‘‘Fuck the Draft’’
directed at no one in particular. (Internal quotation
marks omitted.) Here, the defendant was directing personally provocative insults at McCargo. Second, the
racial animus expressed by the defendant was not
restricted to the ‘‘fucking niggers’’ comments. The
encounter between the defendant and McCargo almost
immediately took on a racial tone when the defendant
commented: ‘‘You’re giving me a ticket because I’m
white.’’ The defendant’s inflammatory reference to the
highly controversial shooting of an African-American
man by a white police officer—‘‘remember Ferguson’’—
only raised the tension more. Third, a witness approximately seventy feet away saw the defendant motion
with his hands back and forth, up and down in an
aggressive manner. Although she could not hear everything, she heard the defendant reference Ferguson and
say ‘‘f’ing unbelievable.’’ She could tell that the defendant was yelling and it upset her. Finally, the defendant
angrily and twice hurled the worst racial epithet in the
English language at McCargo with the ‘‘fucking niggers’’ comment.2
These were scathing insults that in many situations
would provoke a reflexive visceral response. The fact
that no such response occurred is not dispositive of
whether words are fighting words. See State v. Hoshijo
ex rel. White, 102 Haw. 307, 322, 76 P.3d 550 (2003)
(fact that violence was not precipitated is of no consequence, as ‘‘proper standard is whether the words were
likely to provoke a violent response, not whether violence occurred’’ [emphasis in original]). Also, the fact
that the defendant was in his car at the moment that he
yelled his ‘‘fucking niggers’’ epithets does not eviscerate
their ‘‘fighting words’’ quality. Other cases have upheld
breach of the peace convictions on similar facts. See
In re John M., supra, 201 Ariz. 428–29 (the words ‘‘fuck
you, you god damn nigger’’ yelled at an African-American woman from a car as it pulled away were unprotected fighting words). Moreover, the cumulative effect
of the entire incident constituted a breach of the peace.

App.71

I recognize that there are those who advocate that
no speech, however vile and provocative, should be
subject to criminal sanction. See Note, ‘‘The Demise of
the Chaplinsky Fighting Words Doctrine: An Argument
for its Internment,’’ 106 Harv. L. Rev. 1129, 1140 (1993)
(recommending that Chaplinsky be overruled because
‘‘it is a hopeless anachronism that mimics the macho
code of barroom brawls’’ [internal quotation marks
omitted]); see also State v. Tracy, 200 Vt. 216, 237, 130
A.3d 196 (2015) (‘‘[i]n this day and age, the notion that
any set of words are so provocative that they can reasonably be expected to lead an average listener to immediately respond with physical violence is highly
problematic’’ [emphasis in original]).
Steven Pinker, a psychology professor at Harvard
University, reflected on this change in attitude and
behavior when he wrote: ‘‘Centuries ago our ancestors
may have had to squelch all signs of spontaneity and
individuality in order to civilize themselves, but now
that norms of nonviolence are entrenched, we can let
up on particular inhibitions that may be obsolete. In
this way of thinking, the fact that . . . men curse in
public is not a sign of cultural decay. On the contrary,
it’s a sign that they live in a society that is so civilized
that they don’t have to fear being harassed or assaulted
in response. As the novelist Robert Howard put it, ‘[c]ivilized men are more discourteous than savages because
they know they can be impolite without having their
skulls split.’ ’’ S. Pinker, The Better Angels of Our Nature
(Penguin Books 2011) p. 128.
In Baccala, our Supreme Court left for another day
‘‘the continued vitality of the fighting words exception
. . . .’’ State v. Baccala, supra, 326 Conn. 240. In my
view, if angrily calling an African-American man a ‘‘fucking [nigger]’’ after taunting him with references to a
recent police shooting of a young African-American
man by a white police officer is not breach of the peace,
then that day has come.
Because I believe that the evidence was sufficient to
support the defendant’s conviction of breach of the
peace in the second degree, I would affirm the judgment
of the trial court on that count.
1

The defendant is a white male and McCargo is an African-American male.
‘‘The experience of being called ‘nigger’ . . . is like receiving a slap in
the face. The injury is instantaneous.’’ (Internal quotation marks omitted.)
Taylor v. Metzger, 152 N.J. 490, 503, 706 A.2d 685 (1998).
2

App.72

APPENDIX C
Judgment File of the Connecticut Superior Court, State
v. Liegenbuth, CR14-01138466-S (Aug. 15, 2016).

App.73

--

STATE OF CONNECTICUT
Docket #: CRl 4-0.+ 13 8466-S
STATE OF CON}IECTICUT
V.

LIEBENGUTH, CAVID

•
•

SUPERlOR COURT
G.A. #20

•

,..

STAMFORD/NO:RWALK
ATNORWALK

�

AUG 15, 2016

•
"'
*

Present: Hon. Alex Hernandez, Judge

Judgment

On Aug 28, 2014, the defendrurt, David Llebenguth was charged to the count of Breach
of Peace in violati, ,n of CT. Gen. St. sec. 53a.181.
On March 6, 2015, the defendant, David Liebengutb. was additionally charged by the
state to the charge of Tampering with a witness in violation of CT. Geo. St sec. 53a-151.
Oo April 22, 2016, the defend.ant, David Liebengu1h waived his right to a jury trial and
elected to have a courts.ide trial and was fully canvassed.
Oo April 28, 2016, the state filed a long form information charging the defendant, David
Liebenguth to Colcnt 1: Breach of Peace 2nd degree in violation of CT. Gen. St. sec. 53a181 (a)(S) and to Count 2: Tampering with a 'Witness in violation of CT ..Gen. St. sec.
53a-151.

App.74

On May 2, 2016, court trial commenced at 10: 10 a..m.
On May 3, 2016, 1 he state rested its case at 10:05 a-m. and an oral motion for judgment
of acquittal by the defense was denied by Judge Hernandez.
On May 16, 2016. the defense rested and after closing arguments, the court found the
defendant, David l iebengutb guilty on both counts to the long form information. A pre­
sentence investlgat on was ordered.
On Aug. 9, 2016, the court sentenced the defendant, David Liebenguth as follo'i\rs:
Count 1: Breach o1 Peace 2nd degree, 53a-l 81 (a)(5), 6 months els 2 years probation plus a
$1000.00 fine no C>>St incurred; Count 2: Tampering with a witness, 53a-151, 4 years e/s
4 years probation i: !us a $3000.00 fine no cost incuned. Both collllt5 are to run
consecutive to one another for a total effective sentence of 4 ½ years e/s 4 years
probation and a tot ll fine of$4000.00 no cost incurred.
Conditions of probation are follows: (1) mental health evaluation and treatment; (2)
anger management evaluation and treatment; (3) 50 hours community service within the
1 'l year of probatic n; (4) cultural diversity course; (5) no contact, intentional threats, hand
gestures, or violeni:e to victim; (6) fines and probation fees to be paid within 6 months
2n111.
Charles Y. Kim

Caseflow Coordinator

App.75

APPENDIX D
Transcript of the Verdict & Opinion of the Connecticut
Superior Court, State v. Liegenbuth, CR14-01138466-S
(May 16, 2016).

App.76

.,...

(

S20NCR140138466S

SUPERIOR COURT

STATE OF CONNECTICUT

G.A . #20

v.

AT NORWALK, CONNECTICUT

DAVID LIEBENGUTH

MAY 16, 2016

BEFORE THE HONORABLE ALEX HERNANDEZ, JUDGE

A P P E A R A N C E S

(
Representing the State of Connecticut:
ATTORNEY NADIA PRINZ
Office of the State's Attorney
17 Belden Avenue
Norwalk, CT 06850
Representing the Defendant:
ATTORNEY ROB SERAFINOWICZ
590 Middlebury Road
Middlebury, CT 06762

Recorded & Transcribed by:
Donna Bonenfant
Court Recording Monitor
17 Belden Avenue
06850
Norwalk, CT

App.77

19
1

(

(

Thank you.

All right.

I'm going to

2

take a brief recess, and about three -- five minutes,

3

and then I'll be rendering a verdict.

4

(Court stood in a recess)

5

(Court was reconvened)

6

THE COURT:

Good morning.

7

All right.

Mr. Liebenguth, please rise.

8

The Court finds David Liebenguth, on count one

You can be seated.

9

where he's charged with Breach of the Peace in the

10

second degree in violation of Connecticut General

11

Statute section 53a-18la(S) guilty.

·12

Tampering with a Witness in violation of Connecticut

13

General Statute section 53a-151, guilty.

Count two,

14

You can have a seat, Mr. Liebenguth.

15

The Couit finds that the State has proven each

·16

of the elements in each of these two counts beyond a

17

reasonable doubt.

18

Counsel has interposed a legal defense with

19

respect to the language at issue and I believe that I

20

owe counsel an explanation for why I find that that

21

does not constitute protected speech.

22

(_

THE COURT:

In finding that the defendant's language and

23

behavior is not protected speech, the Court considers

24

the words themselves, in other wo�ds, the content of

25

the speech, the context in which it was uttered, and

26

all of the circumstances surrounding the defendant's

n

speech and behavior.

App.78

20

_(

(

1

The Court finds that the defendant's language,

2

fucking niggers directed at Mr. _Mccargo twice is -­

3

is not protected speech.

4

uttered by Mr. Liebenguth -- and incidentally I

5

credit fully the testimony of all the State's

6

witnesses.

7

opportunity to assess their credibility and I found

8

them wholly credible and indeed corroborative of each

9

other.

The -- the racial epithet

·They testified before me and I had an

10

The defendant's use of the particular racial

11

epithet is in the American lexicon, there is no other

12

racial epithet more loaded with racial animus, no

13

other epithet more degrading, demeaning or

14

dehumanizing.

15

most vial racial epithet a non African American can

16

direct towards and African American.

17

is white.

18

It is a word which is probably the

Mr. Liebenguth

Mr. Mccargo is African American.

In light of this country's long and shameful·

19

history of state sanctioned slavery, Jim Crow

20

segregation, state sanctioned racial terrorism,

21

financial and housing discrimination, the word simply

22

has no -- no understanding under these circu�stances

23

other than as a word directed to incite violence.

24

The word itself is a word likely to provoke a violent

25

response.

26
27

The defendant is not however being prosecuted
solely for use of thisA�2fd·

All lan�uage must be

App.79

21
l

(

(

2

considered in light of its context.
The Court finds that considering the -- the

3

content of the defendant's speech taken in context

4

and in light of his belligerent tone, his aggressive

5

stance, the fact that he was walking towards Mr.

6

Mccargo and moving his hands in an aggressive manner,

7

there's no other interpretation other than that these

8

are fighting words.

9

once but twice.

•

I

And he uttered the phrase not

It was directed

the Court finds

10

that it was directed directly at Mr. Mccargo.

11

were no other African �.rnericans.present in the

12

the parking lot when it happened, and indeed Mr.

13

McCargo's unease and apprehension at hearing those

14

words was corroborated by Malorie Frangione who she

15

herself said that she felt disconcerted by the

16

defendant's tone of voice and his aggressive stance

17

and actions.

18

There
in

With respect to count two, the Court has

19

similarly -- similarly considered the words that were

20

used in the e-mail, the subject e-mail.

21

that there is nothing in the evidence which suggests

22

that in sending the e-mail, the defendant intended to

23

comment or bring attention to a matter of public

24

concern in a public forum.

25

It finds

This is particularly true here where as here,

26

the Court finds that the defendant decli�ed the

27

police officer's request to contac t him and discuss

App.80

the matter further. The defendant never followed up
on that. That undermines any claim that he was

trying to bring attention to a matter of public
interest, specifically that the criiaes that he claims
were committed in the e-mail.

He —it's also true whereas here, he falsely
claimed in the voicemail that the complaining

witness, Mr. McCargo, had engaged in discrimination,
again, discriminatory action. Again, there was no
follow-up by the defendant.

The defendant sent the communication via e-mail

rather than in a manner designed to reach as broad a
public audience as possible.

And finally and mostly notably, the content -

content of the comunication its - itself was of an
entirely personal nature. He stated that he was

willing to withdraw his claim which he now suggests
was a matter of public interest, in exchange for a

purely personal benefit, namely the withdrawal of
criminal charges which were then pending against Mr.
Liebenguth.

so for those reasons, the Court rejects the
defendant's claim that either or both of these

statements were protected first amendment speech.
Mr. Liebenguth, you've been found guilty of

count one which is a class Bmisdemeanor punishable
by up to six months impAi2S™^°^'

App.81

